   U.S. Department of Education




        Inspector General’s
Semiannual Report to Congress #51
 April 1, 2005-September 30, 2005
  U.S. Department of Education




         Inspector General’s
Semiannual Report to Congress: No. 51

   April 1, 2005 - September 30, 2005
                            UNITED STATES DEPARTMENT OF EDUCATION
                                                OFFICE OF INSPECTOR GENERAL

                                                                                                               THE INSPECTOR GENERAL




                                                                                       October 31, 2005
Dear Madam Secretary:

I am pleased to submit to you, in accordance with the Inspector General Act of 1978 (Public Law
95-452, as amended, section 5(b)), this semiannual report on the activities of the Office of
Inspector General for the six-month period ending September 30, 2005.

This report highlights our most significant work from the last six months, reflecting our strong
commitment and valuable role in assisting the Department in improving its programs and
operations and ensuring their integrity. We look forward to continuing to work with you towards
these goals.

The Inspector General Act requires you to transmit this report within 30 days to the appropriate
Congressional committees and subcommittees, together with a report containing any comments
you wish to make. Your report should also include the statistical tables specified in section
5(b)(2) and (3) of the Inspector General Act, and a statement with respect to audit reports on
which management decisions have been made, but final action has not been taken, as specified in
section (5)(b)(4) of the Inspector General Act.



                                                                     Sincerely,




                                                                     John P. Higgins, Jr.

Enclosure



                          400 MARYLAND AVE., S.W. WASHINGTON, D.C. 20202-1510
            Our mission is to ensure equal access to education and to promote educational excellence throughout the nation.
                                                                    CONTENTS

MESSAGE TO CONGRESS

I. OVERVIEW .......................................................................................................................................... 1

II. PROGRAM ACCOUNTABILITY-STUDENT FINANCIAL ASSISTANCE .............................. 2
      Guaranty Agency Loan Disbursements for Students Attending Foreign Schools ............................. 2
      University of Phoenix ........................................................................................................................ 2
      University of the Virgin Islands ......................................................................................................... 3
      eZ-Audit Process ................................................................................................................................ 3
      Management Decision with which We Disagree ............................................................................... 3
      Congressional Hearings on Student Financial Assistance Programs ................................................. 4
      OIG Recommendations for HEA Reauthorization ............................................................................ 5
      Identifying and Investigating Fraud and Abuse in the Student Financial Assistance Arena ............. 5
         Fraud By School Officials ............................................................................................................ 5
         Fraud By Employees of Companies Involved In Federal Student Aid Programs ....................... 7
         Identity Theft/Misuse Of Social Security Numbers ..................................................................... 7
         Other Recipient Fraud .................................................................................................................. 8

III. PROGRAM ACCOUNTABILITY - STATE AND LOCAL ASSISTANCE .............................. 9
     No Child Left Behind ......................................................................................................................... 9
          Unsafe School Choice Option ...................................................................................................... 9
          School Choice and Supplemental Educational Services .............................................................. 9
          Consolidating Funds .................................................................................................................. 10
      Individuals with Disabilities Education Act .................................................................................... 10
      Expenditures by Grantees ................................................................................................................ 10
          New York City Department of Education ................................................................................. 10
          Wyandanch Union Free School District (Long, Island, New York) .......................................... 11
          Louisiana Department of Education .......................................................................................... 11
      Unsolicited Grants ........................................................................................................................... 11
      High-Risk Grantees .......................................................................................................................... 12
          Guam .......................................................................................................................................... 12
          Virgin Islands ............................................................................................................................. 12
      Identifying and Investigating Corruption ........................................................................................ 13

IV: INTERNAL OPERATIONS AND FINANCIAL MANAGEMENT ACCOUNTABILITY ... 14
     Public Relations Contracts ............................................................................................................... 14
         Ketchum, Inc. ............................................................................................................................. 14
         Contracts and Grants for Public Relations Services .................................................................. 15
     Information Technology Security .................................................................................................... 15
     Data Reliability ................................................................................................................................ 16
     Prompt Payment Act ........................................................................................................................ 16
     Purchase Cards ................................................................................................................................. 17
     Internal Audit Follow-Up ................................................................................................................ 17
     Department's Contractor 6C Security Clearance Procedures .......................................................... 18
     Inspection of Access to the National Student Loan Data System .................................................... 18
        Identifying and Investigating Internal Abuse .................................................................................. 18

V: OTHER ACTIVITIES AND ACCOMPLISHMENTS ................................................................. 19
    Hurricane Disaster Relief.................................................................................................................. 19
    OIG Expands Cybercrime Activities ................................................................................................ 19
    Nonfederal Audits ............................................................................................................................. 19
    President's Council on Integrity and Efficiency ............................................................................... 19
        National Single Audit Sampling Project .................................................................................... 20
        Study on Costs and Benefits of Obtaining an Opinion on Internal Control .............................. 20
        Peer Review Guide .................................................................................................................... 20
    PCIE Information Technology Roundtable ...................................................................................... 20

Reporting Requirements of the Inspector General Act, as amended ................................................ 21
Table 1: Recommendations Described in Previous Semiannual Reports on
         Which Corrective Action Has Not Been Completed ................................................................ 21
Table 2: ED/OIG Audit Reports on Education Department Programs and Activities
         (April 1, 2005 to September 30, 2005) ..................................................................................... 23
Table 3: Other ED/OIG Reports on Education Department Programs and Activities
         (April 1, 2005 to September 30, 2005) ..................................................................................... 27
Table 4: Inspector General Issued Audit Reports with Questioned Costs .............................................. 28
Table 5: Inspector General Issued Audit Reports with Recommendations for Better Use of Funds ..... 29
Table 6: Unresolved Reports Issued Prior to April 1, 2005 .................................................................... 29
Table 7: Investigation Services Cumulative Actions (April 1, 2005 to September 30, 2005) ................ 36
Table 8: Statistical Profile: April 1, 2005 to September 30, 2005 .......................................................... 41
                          INSPECTOR GENERAL’S
                          MESSAGE TO CONGRESS

We are pleased to provide this semiannual report on the activities and accomplishments of the
Office of Inspector General (OIG), U.S. Department of Education (Department) from April 1,
2005 through September 30, 2005.

The Department celebrated its 25th anniversary this year, an important milestone that also marks
OIG's 25th year of service to the Department. For a quarter of a century, OIG has promoted the
efficiency, effectiveness, and integrity of the Department's programs and operations. We have
worked with the Department to identify and help prevent fraud, waste, abuse and
mismanagement. We have consistently conducted independent and objective audits,
investigations, inspections and, based on our findings, made recommendations to the Department
to address the problems we find, and have investigated fraud leading to the prosecution of those
who try to gain federal education funds illegally. With your continued support, we will continue
to do so for years to come.

Over the last six months, OIG issued 51 audits, inspection reports and memoranda, and closed
114 investigations. As detailed in this report, we continue to leverage our very limited resources
on the programs and operations that challenge the Department in its ability to exercise effective
stewardship of the taxpayer dollars with which it has been entrusted. Our work over the last six
months shows that the Department has much to do to achieve effective oversight, accountability
and enforcement throughout its programs and operations. This is particularly true in the areas of
student financial assistance, compliance by grantees in the state and local assistance arena, and
internal operations. Also discussed in this report is our audit of the New Mexico Educational
Assistance Foundation's use of tax-exempt obligations to finance student loans and the
Department's final determination on our findings and recommendations. We disagreed with the
Department's determination and provide our reasoning for doing so on page 3 of this report.

Once again, thanks to the hard work and effort by employees past and present, OIG has capably
fulfilled its mission for the last 25 years. We have made a positive difference in assisting the
Department in ensuring the integrity of its operations and improving its programs in order to
provide the best service to the American public. And, while we take a moment to celebrate our
25th anniversary, we remain ever vigilant. We look forward to working with the 109th Congress
and the Secretary in furthering our goals and achieving our mission.




                                                   John P. Higgins, Jr.
                                                   Inspector General
OVERVIEW
           The Office of Inspector General (OIG), for the period April 1, 2005 through September 30,
           2005, continued its work to promote efficiency, effectiveness and integrity in the programs
           and operations of the U.S. Department of Education (Department). Our efforts during this
           time period continue to reveal weaknesses in the Department's oversight of and
           accountability for its programs and operations.

           Over the last 25 years, the U.S. Congress has entrusted the Department with increasing
           sums of taxpayer dollars to fulfill its mission. The Department's budget has grown five-
           fold: from approximately $14 billion for Fiscal Year (FY) 1981, to over $71 billion for FY
           2005. The Department exercises stewardship over these taxpayer dollars and has an
           obligation to carry out its responsibilities with diligence. America's taxpayers and students
           deserve nothing less.

           As detailed in this report, we continue to leverage our very limited resources on the
           programs and operations that challenge the Department in its ability to exercise effective
           stewardship of the taxpayer dollars with which it has been entrusted. These areas include
           the very large and complex student financial assistance programs. Audits, inspections and
           investigations completed in this area are highlighted in the second section of this report.
           This includes our audit of the New Mexico Educational Assistance Foundation's use of
           tax-exempt obligations to finance student loans and the Department's final determination
           on our findings and recommendations. We disagreed with the Department's determination
           and below provide our reasoning for doing so.

           In the third section of this report, we provide a summary of the work we conducted in the
           area of state and local assistance. Our efforts reveal that the Department has much to do to
           fully achieve effective oversight and accountability in its elementary, secondary, special
           education and vocational education programs. Risk management and compliance by
           grantees in these areas continue to be a challenge for the Department. As we pointed out in
           our last Semiannual Report to Congress (No. 50, October 1, 2004 - March 31, 2005), these
           problems are demanding more of our attention and resources.

           Our audits and inspections in the area of the Department's internal operations show that it
           must establish effective accountability for its contractors and employees. The work we
           concluded during this reporting period shows inadequacies in oversight, monitoring and
           accountability by Department management and staff. A summary of our audits and
           inspections in this area is covered in the fourth section of this report.

           OIG constantly strives to improve its operations. We identify emerging threats to the
           integrity of the Department's programs and capitalize on new and evolving techniques to
           help address these issues. We highlight some of our additional activities and
           accomplishments in the fifth section of this report. In the sixth and final section of this
           report are compilation tables of the audits, inspections and investigations we concluded
           during this reporting period, as required by the Inspector General Act.

           In closing, 2005 marks our 25th year of service. For a quarter of a century, we have
           successfully promoted the efficiency, effectiveness, and integrity of the Department's



                                             1
                                                            Semiannual Report To Congress: #51

         programs and operations. We have worked with the Department to prevent fraud, waste,
         abuse and mismanagement. We have consistently conducted independent and objective
         audits, investigations, inspections, and based on our findings, made recommendations to
         the Department to address the problems we find, and investigated fraud leading to the
         prosecution of those who try to gain federal education funds illegally. While we take a
         moment to celebrate our silver anniversary, we remain ever vigilant and will continue to
         further our goals and achieve our mission.


PROGRAM ACCOUNTABILITY-STUDENT FINANCIAL
ASSISTANCE
         The Department's student financial assistance programs are large and complex. The loan
         and grant programs rely on over 6,000 postsecondary institutions, more than 3,000 lenders,
         35 guaranty agencies and many contractors. The size and scope of the programs have
         increased greatly in recent years, with total program dollars doubling in the last ten years
         alone. Continued developments in the modes of education delivery (e.g., non-traditional
         terms, distance education) and virtual paperless electronic delivery of program funds bring
         new challenges to ensure adequate oversight to identify and manage risks. With
         approximately $70 billion awarded annually through the student financial assistance
         programs and an outstanding loan portfolio approaching $400 billion, the Department
         must ensure that all entities involved in the programs are adhering to statutory and
         regulatory requirements. The Office of Federal Student Aid (FSA) must provide adequate
         program monitoring to reduce fraud and abuse in these programs. Further, the
         Department's responses to OIG audits have shown that stewardship remains a challenge
         for the Department, as several audits concluded during this period have found that the
         Department has not taken sufficient actions to protect federal funds or recover funds to
         which entities were not entitled.

         Guaranty Agency Loan Disbursements for Students Attending Foreign Schools
         With regard to students attending schools outside the United States, our objective was to
         determine if guaranty agencies had established policies and procedures to provide
         reasonable assurance that they complied with all requirements for ensuring that Federal
         Family Education Loan (FFEL) program funds are disbursed only to eligible borrowers for
         attendance at eligible schools. We concluded that guaranty agencies had not established
         the required policies and procedures. Our conclusion was based on audit work at United
         Student Aid Funds, Inc. and Great Lakes Higher Education Corporation that, combined,
         account for the guarantees on 79 percent of all loans to students attending foreign schools.
         We recommended that FSA, in conjunction with the Office of Postsecondary Education
         (OPE), require guaranty agencies to establish and implement policies and procedures for
         monitoring, on an ongoing basis, lenders' compliance with their verification policies;
         require the guaranty agencies to test all disbursements made to borrowers for attendance at
         foreign schools and cancel the loan guaranty for all ineligible loans identified; and send
         proper written guidance to all lenders and highlight the section on lender requirements,
         emphasizing that lenders must follow their guaranty agencies' policies. FSA and OPE
         agreed with the first two recommendations, but disagreed with the third recommendation.
         http://www.ed.gov/about/offices/list/oig/auditreports/a05e0028.pdf


                                            2
                                                   Semiannual Report To Congress: #51

University of Phoenix
We conducted an audit of the University of Phoenix (UOP) to determine whether it had
policies and procedures that provide reasonable assurance that the institution properly
makes initial and subsequent disbursements to students enrolled in eligible programs under
Title IV of the Higher Education Act of 1965, as amended (HEA). We determined that
UOP had improperly used over $319,000 in Title IV funds to credit student accounts for
prior learning assessment fees, and had disbursed over $22,650 to students in an ineligible
general studies program. With the exception of our finding regarding the crediting of
student accounts for unallowable charges, UOP concurred with our findings and
recommendations. http://www.ed.gov/about/offices/list/oig/auditreports/a09e0015.pdf

University of the Virgin Islands
The purpose of this audit was to determine whether the University of the Virgin Islands
(UVI) administered its student financial assistance programs in compliance with Title IV
of the HEA and applicable regulations. Specifically, we evaluated UVI's compliance with
federal regulations governing return of Title IV funds, cash management, student credit
balances and student eligibility. We found that UVI did not always calculate correctly and
pay timely returns of Title IV funds. Also, UVI did not correctly manage cash, as it was
improperly maintaining student credit balances. Student eligibility became an issue when
UVI deleted academic records, failed to accurately or consistently track student
withdrawals and did not consistently apply satisfactory academic progress standards. UVI
was not financially responsible because it failed to submit required Single Audits in a
timely manner. Based on the significance of these findings, we concluded that UVI did
not always meet the administrative capability standards for Title IV programs. Because of
UVI's failure to submit Single Audits in a timely manner, we recommended that FSA take
action to allow UVI to continue participation in the Title IV programs only under the
provisional certification requirements, or take appropriate legal action to fine the
institution, or to limit, suspend or terminate its eligibility. UVI concurred with our
findings and stated that it would work with FSA on the recommendations. http://
www.ed.gov/about/offices/list/oig/auditreports/a02e0003.pdf

eZ-Audit Process
In order to participate in the Title IV programs, an institution must be financially
responsible. FSA evaluates financial responsibility based on audited financial statements
that institutions are required to submit annually. In 2003, FSA implemented the eZ-Audit
system -- a process for institutions to submit financial statements electronically.
Institutions are required to enter detailed financial information into templates within eZ-
Audit. OMB has allowed FSA to operate eZ-Audit as a pilot project prior to making a
final decision on the Department's request for approval under the Paperwork Reduction
Act of 1995, as amended.

We identified two primary conditions with the eZ-Audit system. The first was that
institutions cannot accurately enter the detail line item data into the eZ-Audit financial
statement templates. The second was that FSA does not use and does not evaluate the
detail line item data entered by institutions. We concluded that requiring institutions to
provide information that is not verified and not used can only be considered a burden on


                                   3
                                                    Semiannual Report To Congress: #51

institutions. FSA's response to our audit did not address the problem of unverifiable
amounts entered into the detail line items. Unverifiable amounts occur because of the
broad latitude provided for in financial reporting with regard to account classification.
FSA cannot determine the correct amounts for unverifiable financial statement template
line items without extensive communication with institutions. FSA's response was silent
on the fact that the detail line item data entered by institutions is not used in evaluating
financial responsibility. Nor did FSA address the fact that the data problems with the
detail line items make it impossible to use the data for any trend analysis in the future.
http://www.ed.gov/about/offices/list/oig/auditreports/a03f0001.pdf

Management Decision with which We Disagree
On May 24, 2005, we issued our final audit report, Special Allowance Payments to New
Mexico Educational Assistance Foundation for Loans Funded by Tax-Exempt Obligations
(ED-OIG/A05E0017, available at http://www.ed.gov/about/offices/list/oig/auditreports/
a05e0017.pdf). In its final audit determination for this report, issued to New Mexico
Educational Assistance Foundation (NMEAF) on July 8, 2005, the Department did not
support two of our three findings. We disagree with the Department's determination.

With respect to our first finding, we relied on the text of the Department's regulations to
conclude that the NMEAF improperly continued to bill for special allowance payments
under the 9.5 percent floor after the loans had been transferred as security for new
obligations and the original obligations were retired or defeased. The Department's
determination stated that, in sub-regulatory guidance it issued in 1993 and 1995, it
unambiguously and authoritatively interpreted statutory language related to the 9.5 percent
floor so that loans funded by tax-exempt obligations that are refinanced after October 1,
1993, continue to qualify for the 9.5 percent floor. The Department stated that it is
required to apply the law and regulations in accordance with this prior interpretation.

We disagree with the Department's determination that it had previously provided an
authoritative and unambiguous interpretation of statutory language related to the 9.5
percent floor. We did not find adequate support for the Department's interpretation in the
prior sub-regulatory guidance, the Department could not articulate its interpretation to us
before it was presented in the final audit determination, and the Department's position
appears to conflict with its response to a report issued by the United States Government
Accountability Office in September 2004, Federal Family Education Loan Program:
Statutory and Regulatory Changes Could Avert Billions in Unnecessary Federal Subsidy
Payments (GAO-04-1070).

In our second finding, we found that NMEAF's loan records did not indicate that all of its
loans billed under the 9.5 percent floor calculation were made or purchased with funds
from eligible sources, as defined in Department regulations. The Department's
determination stated that it had conducted an additional analysis and determined that,
based on the characteristics of NMEAF's loan portfolio and existing controls, procedures,
and automated and hard copy records and reports, NMEAF's records were adequate to
support its billing under the 9.5 percent floor.

We disagree with the Department's determination because none of the loan records
provided by NMEAF for the loans we reviewed supported the individual eligibility of


                                   4
                                                   Semiannual Report To Congress: #51

those loans for the 9.5 percent floor. Also, according to the documentation of its review
that it provided to us, the Department did not perform work to ensure that its understanding
of the loan portfolio's characteristics was accurate nor to ensure that NMEAF's controls
and procedures had their intended effect. As a result, the Department's conclusions are not
supported by the records it reviewed or the analysis it provided to us.

Our report calculated that, for the two findings with which the Department disagreed,
NMEAF may have been overpaid up to $18.4 million of the $18.6 million in special
allowance payments it received for the five quarters ending December 31, 2002, through
December 31, 2003. The outcome of the Department's determination is that NMEAF and
other, similar lenders will retain and continue to receive excessive special allowance
payments under the 9.5 percent floor. These payments will not result in any identified
benefit to the government and do not appear to be necessary to ensure an equitable return
to lenders.

Congressional Hearings on Student Financial Assistance Programs
                                        On May 26, Inspector General John P. Higgins, Jr.
                                        and FSA Chief Operating Officer Theresa Shaw
                                        testified before the Government Reform Committee
                                        of the U.S. House of Representatives on the
                                        management and performance of the FFEL and
                                        Direct Loan programs. Inspector General Higgins
                                        discussed OIG's joint effort with FSA to assess
                                        controls over all of the financial assistance
                                        programs, with the goal of identifying and reducing
fraud and abuse. He provided the Committee with information on this collaboration,
known as the Fraud Initiative, noting how it identified 11 risk categories that represent
areas within the student financial assistance programs that are the most vulnerable to fraud
and abuse. He informed the Committee that work groups have been established to focus
on three key areas: Free Application for Federal Student Aid (FAFSA) falsification,
identity theft, and school fraud and abuse. In addition, Inspector General Higgins provided
the Committee legislative changes that, if adopted, will go a long way to improve the
management of, and reduce the risks in, these programs. This included our on-going call
for Congress to amend the Internal Revenue Code to allow the Department to match the
information provided on the FAFSA with the income data that is maintained by the
Internal Revenue Service. A copy of Inspector General Higgins' testimony is available on
our Web site. http://www.ed.gov/about/offices/list/oig/auditrpts/stmt052005.pdf

OIG Recommendations for HEA Reauthorization
The House Committee on Education and the Workforce, as well as the Senate Committee
on Health, Education, Labor and Pensions, passed legislation reauthorizing the HEA.
Prior to Committee passage, OIG encouraged both Committees to consider a number of
changes to the HEA that are needed to reduce waste, fraud and abuse in the federal student
aid programs. There are several issues in particular that were not included in either
Committee-passed bill that our findings show should be addressed in order to correct
systematic weaknesses that contribute to recurring problems in the student financial
assistance programs. These are:

                                   5
                                                                          Semiannual Report To Congress: #51

                     Make persons convicted of Title IV fraud ineligible for future Title IV funds.

                     Establish a statutory definition of a credit hour.

                     Require accrediting agencies to have quantitative standards in addition to qualitative
                     standards for evaluating credit hours for all educational delivery models they approve.

                     Increase the validity of cohort default rates by: (1) changing the criteria for a loan's
                     default, in Section 435(l) of the HEA, from 270 days of delinquency to 180 days of
                     delinquency, and (2) excluding a student from a school's cohort default rate calculation
                     while the student's loans are in a deferment or forbearance status. The student should
                     be included in the school's cohort default rate calculation once his or her deferment or
                     forbearance has ended.

                  We encourage both chambers to give strong consideration to these measures, as
                  implementation of these, as well as the other OIG recommendations, would assist the
                  Department in evaluating the quantity of education funded by the student financial
                  assistance programs, provide additional oversight tools for identifying and managing risks,
                  and assist in reducing fraud and abuse in the programs.

                  Identifying and Investigating Fraud and Abuse in the Student Financial
                  Assistance Arena
                  The following are examples of our investigative work in this area over the last six months.

FRAUD BY SCHOOL   Enrollment of Ineligible Students - The Training Center. A school owner and three
OFFICIALS         employees of The Training Center, located in Michigan, were sentenced for their roles in a
                  fraud scheme. The owner was sentenced to 41 months incarceration and two years
                  probation and ordered to pay over $793,000 in restitution, and a $125,000 fine, with an
                  immediate required payment of $425,000. The others were given sentences ranging from 6
                  to18 months and ordered to pay restitution ranging from $5,000 to $25,000. The
                  conspirators were convicted of falsifying or directing the falsification of records and
                  violating regulations in order to continue accreditation and to receive approximately
                  $875,000 from the Department. Included among the falsified records were attendance
                  records, G.E.D. certificates, high school diplomas, Ability to Benefit Tests and
                  certifications of foreign high schools. In addition, records of students enrolled in or
                  attending classes in ineligible programs - English as a Second Language (ESL) and
                  Automated Computer Aided Design - were altered and falsified to make it appear as
                  though the students were in an eligible program. OIG received a 2005 President's Council
                  on Integrity and Efficiency (PCIE) award for its work in this case.

                  Use of Ineligible Branch Locations - William Tyndale College. An officer of William
                  Tyndale College (WTC) in Michigan accepted a pre-trial diversion, while another officer
                  was sentenced and ordered to pay $318,000 in restitution, for conspiring to defraud the
                  government out of more than a half-million dollars in student financial aid. The officers,
                  along with a third officer whose trial is pending, purchased a closed Computer Learning
                  Center school in 2001, named the school Tyndale Technical Institute, and then later
                  renamed it Northstar. Our investigation developed evidence that the three conspired to use



                                                      6
                                                   Semiannual Report To Congress: #51

WTC's Title IV eligibility to obtain federal student aid for Northstar students, making them
appear as though they were enrolled at WTC.

Pittsburgh Beauty Academy. The President of the Pittsburgh Beauty Academy (PBA) in
Pennsylvania was sentenced to one-year probation and ordered to pay restitution of over
$83,000 for his role in a financial aid fraud scheme. An OIG investigation found that
between 1999 and 2001, the school did not pay refunds totaling over $83,000. PBA owned
and operated four schools in and around the Pittsburgh area for over 48 years.

Falsification of Attendance - Hamilton Professional Schools. One of the owners of
Hamilton Professional Schools in Puerto Rico was sentenced to two years probation and
ordered to pay over $22,000 in restitution for making false statements in connection with
the administration of Pell Grant funds at the school. In June, her husband, also an owner of
the school, pled guilty to embezzling and converting to his own use over $452,000 in Pell
Grant funds.

LeMoyne-Owen College. A temporary employee at LeMoyne-Owen College (LOC)
located in Tennessee, was sentenced to 27 months in prison and three years supervised
release and ordered to pay over $80,000 in restitution for her role in a conspiracy and
embezzlement scheme at LOC. The temporary employee issued checks to friends and
relatives, including her mother and former live-in boyfriend, who have also been charged
in this investigation.

In a separate case involving another fraud scheme at LOC, a man was sentenced to one
year of probation for his role in a scheme in which he and others received more than
$230,000 in illegal student refunds from LOC. The individual was ordered to pay over
$4,000 in restitution to the St. Paul Insurance Company. Although he was never a student
at LOC, he received two student refund checks from a former LOC employee, who was
dating his cousin at the time. So far, 21 individuals have been sentenced in this scheme.

San Bernardino Valley College. A former financial aid officer was sentenced to just
under a year in prison for coordinating a financial aid kickback scheme at San Bernardino
Valley College in California. An OIG investigation disclosed that the former officer
offered Pell Grants to individuals in exchange for a kickback of cash or drugs after the
grant checks were cashed. The grant recipients obtained more than $60,000 in Pell Grant
funds, but did not attend the school. To date, nine individuals have been sentenced for
their roles in this scheme.

MBTI Business Training Institute. The former financial aid director of MBTI Business
Training Institute, located in Wisconsin, was sentenced to 30 months of probation and 240
days of home confinement and ordered to pay a $2,000 criminal fine for her role in a
scheme to defraud the Department of student aid funds. A prior indictment charged the
woman, as well as her co-conspirators, with failure to refund over $550,000 in Title IV
funds, illegally disbursing over $216,000 in FFEL funds and submitting fraudulent claims
for reimbursement to the Department totaling over $571,000.




                                   7
                                                                       Semiannual Report To Congress: #51

FRAUD BY           Three former employees of the NCO Financial Systems, Inc. (NCO) collection agency in
EMPLOYEES OF       Getzville, New York, were sentenced for their roles in a scheme to fraudulently
COMPANIES          consolidate nearly $3.8 million in defaulted FFEL loans, and in doing so, earned bonus
INVOLVED IN        compensation from their employer. The former collection agents created numerous loan
FEDERAL STUDENT    consolidation applications in the names of various defaulted FFEL borrowers, forged their
AID PROGRAMS       signatures on the applications and made fictitious entries into NCO's collection history
                   system falsely claiming contact had been made with the borrowers. The loan
                   consolidation applications made it appear that the defaulted borrowers had entered into
                   formal repayment agreements, when they had not agreed nor authorized the company to
                   make any such arrangements. The agents also changed the permanent addresses of the
                   borrowers in the NCO collection history system in an attempt to avoid detection and to
                   further mask the fraud. After preparing and forging the loan consolidation documents, the
                   agents submitted them to the Department, which then paid compensation to New York
                   Higher Education Services Corporation (NYHESC), the guarantor of the defaulted FFEL
                   accounts, which in turn, paid compensation to NCO.

IDENTITY THEFT/    Together with FSA, we continue our efforts to alert students to the threat of identity theft
MISUSE OF SOCIAL   via our special campaign Web site, www.ed.gov/misused, that provides information on
SECURITY NUMBERS   scams, suggestions for preventing identity theft and resources on how to report identity
                   theft involving federal education dollars. In May, our Web site, as well as our special
                   DVD entitled "FSA Identity Theft: We Need Your Help,” were featured in news reports
                   covered by the New York Times and ABC News World News Tonight. At the same time,
                   OIG special agents continue to aggressively pursue individuals who steal FSA funds by
                   misusing the identity of others: name, date of birth, and Social Security numbers (SSN).

                   A woman who orchestrated a $400,000 student aid fraud scheme was sentenced, along
                   with her six co-conspirators, for participating in a scheme whereby 41 identities were used
                   to fraudulently obtain student aid funds. The participants used fraudulently obtained
                   identities of others, those of willing partners and their own identification to obtain funds
                   they were ineligible to receive. Some of the identities were obtained through identity theft,
                   while others were provided by individuals who expected to receive a portion of the
                   proceeds. The conspirators enrolled these individuals in online courses at Kirkwood
                   Community College in Cedar Rapids, Iowa. The school disbursed excess funds by mailing
                   checks to the defendants' addresses, and the defendants retained the majority of these funds
                   for their personal use. The ringleader was sentenced to over 7 years in prison and 3 years
                   of supervised release and ordered to pay over $414,000 in restitution. Her co-conspirators
                   -- including her mother and sisters -- received probation or prison sentences ranging from
                   5 to 27 months and were ordered to pay restitution ranging from $10,000 to over $141,000.

                   A national of India was sentenced to a year in prison and two years probation and ordered
                   to pay over $304,000 in restitution for his identity theft scheme that spanned eight years.
                   The individual, who was in the U.S. on a student visa, assumed the identity of a U.S.
                   citizen and used it to obtain federal and private student aid to which he was not entitled.
                   He attended undergraduate schools in Ohio and received a medical degree from Tufts
                   University School of Medicine in Boston in 2000. He currently awaits a decision on
                   deportation.

                   A law school graduate from New York was sentenced to 30 months incarceration followed
                   by three years of supervised release and ordered to pay over $178,000 in restitution for


                                                      8
                                                                     Semiannual Report To Congress: #51

                  student financial aid fraud and bank fraud. The woman defaulted on her federal student
                  loan repayment obligations in 1988, however she attended at least five other post-
                  secondary institutions using multiple false social security numbers and falsely reported
                  that she never defaulted on a federal student loan.

                  An individual was sentenced in Maryland to 24 months incarceration and three years
                  supervised probation and ordered to pay over $138,000 in restitution for misusing a SSN.
                  The individual used SSNs belonging to other individuals and provided false information to
                  the Commissioner of Social Security to obtain multiple SSNs in an effort to conceal from
                  lenders, schools and the Department the number and status of loans and other forms of
                  student aid he received. The individual received student financial assistance from five
                  universities, using four different SSNs, and several variations of his name.

                  Sentences were issued for individuals involved in a scheme coordinated by a Chicago
                  couple to fraudulently receive student loan funds for purported attendance at a university
                  in the United Kingdom (U.K.). The couple created a fictitious organization that purported
                  to enroll students from the U.S. at a university in the U.K. They hired another individual
                  to recruit participants in the scheme, then directed or assisted the participants in filing
                  federal student aid applications. The individuals posed as graduate students in order to
                  receive over $18,000 in student aid funds, $10,000 of which they kickbacked to the couple.
                  None of the individuals was ever enrolled in the U.K. school. All 18 individuals involved
                  in the scheme have been sentenced.

OTHER RECIPIENT   A mother and daughter were sentenced for their roles in a fraud scheme where they
FRAUD             received over $200,000 in student financial assistance funds by falsely claiming
                  attendance at the University of West Los Angeles. To carry out the scheme, the two
                  entered into agreements with the financial aid director at the school, who processed the
                  loans and received half of the loan amounts as a fee. The mother received eight student
                  loans, while her daughter received five student loans. The mother was sentenced to 4
                  months of home detention followed by 5 years of probation, and was ordered to pay
                  $148,000 in restitution, while the daughter was sentenced to 5 years of probation and
                  ordered to pay over $81,000 in restitution.

                  A Michigan couple was sentenced to prison terms followed by supervised release and
                  ordered to pay more than $2 million in restitution for their roles in a fraud scheme that
                  involved conspiracy, bankruptcy fraud, income tax evasion, mail fraud, wire fraud and
                  student financial assistance fraud. The couple helped lure individuals to a sham company
                  created by a fellow conspirator, who used the company to swindle investors' money in
                  supposed real estate investments. The co-conspirator induced the individuals to transfer
                  their savings and retirement funds to investments with the sham company. He purchased
                  real estate with some of the investment money, used the real estate to convince the
                  investors that their money was fully secured, and used the money of new investors to pay
                  "interest" to previous investors. When the interest payments stopped and the investors
                  wanted to take control of their property holdings, the property was found to be worth a
                  fraction of their investments. The couple failed to claim any of the income they received
                  from the company to the IRS, and did not claim the income on their children's financial aid
                  applications. The couple's children received approximately $23,000 in Pell Grants, and
                  Supplemental Educational Opportunity Grant (SEOG) and FFEL loans. Had their real
                  income been reported, they would not have received the Pell and SEOG funds. This case


                                                     9
                                                                        Semiannual Report To Congress: #51

                   was investigated with the IRS, Federal Bureau of Investigation (FBI) and Postal Inspection
                   Service.


PROGRAM ACCOUNTABILITY - STATE AND LOCAL ASSISTANCE
                   In recent years, we have increased our resources in reviewing alleged waste, fraud and
                   abuse in the Department's elementary, secondary, special education and vocational and
                   adult education programs. As highlighted in our last Semiannual Report to Congress (No.
                   50, October 1, 2004 - March 30, 2005), risk management and identifying and taking
                   corrective action to detect and prevent fraudulent activities in these areas pose a significant
                   challenge for the Department. Audits conducted during this reporting period show that
                   these areas continue to challenge the Department, with other areas of concern emerging,
                   such as oversight of awardees of unsolicited grants and Congressional earmarks. And, as
                   we continue our audits into state educational agency compliance with the diverse programs
                   associated with the No Child Left Behind Act of 2001 (NCLB), we find an on-going need
                   for additional guidance and monitoring to ensure compliance.

                   No Child Left Behind

UNSAFE SCHOOL      A review of four state educational agencies' compliance with the Unsafe School Choice
CHOICE OPTION      Option (USCO) of the Elementary and Secondary Education Act of 1965 (ESEA), as
                   amended by NCLB, sought to determine whether each state's USCO policy complied with
                   all applicable laws, regulations and Department guidance, and whether each state
                   adequately implemented the USCO policy at the state and local levels. Audits were
                   conducted in Georgia, Iowa, New Jersey and Texas. In Georgia, Iowa and New Jersey, we
                   found that while each state's USCO policy generally complied with applicable laws,
                   regulations and guidance, the states did not ensure that the policies were adequately
                   implemented at the local level. In Texas, we found the state's USCO policy did not fully
                   comply with all applicable laws, regulations and guidance, nor did Texas adequately
                   ensure that the policy was implemented at the local level. Our work in California on this
                   issue was reported in our last Semiannual Report (No. 50).

                   Georgia: http://www.ed.gov/about/offices/list/oig/auditreports/a04e0007.pdf
                   Iowa: http://www.ed.gov/about/offices/list/oig/auditreports/a07e0027.pdf
                   New Jersey: http://www.ed.gov/about/offices/list/oig/auditreports/a03e0008.pdf
                   Texas: http://www.ed.gov/about/offices/list/oig/auditreports/a06e0028.pdf

SCHOOL CHOICE      We concluded audits of four state educational agencies' compliance with the School
AND SUPPLEMENTAL   Choice and Supplemental Educational Services (SES) provisions of the ESEA, as
EDUCATIONAL        amended by NCLB: Illinois, Michigan, Nevada and New Jersey. We sought to determine
SERVICES           if the state agency had an adequate process in place to review local educational agency
                   (LEA) and school compliance with the Adequate Yearly Progress (AYP), Public School
                   Choice and SES provisions of ESEA, and if LEAs provided to students attending schools
                   identified for improvement (failed to make AYP two consecutive years) the option of
                   attending another public school. We also reviewed whether LEAs provided SES to
                   students attending schools that failed to make AYP while identified for improvement,
                   corrective action or restructuring. We found that all four states reviewed did not have an


                                                      10
                                                                    Semiannual Report To Congress: #51

                adequate process in place to ensure that LEAs complied with all school choice and SES
                provisions of ESEA. In addition, LEAs in all four states had deficiencies in the school
                choice and SES notification letters sent to parents. Our work in Indiana on this issue was
                reported in our last Semiannual Report (No. 50).

                Illinois: http://www.ed.gov/about/offices/list/oig/auditreports/a07f0003.pdf
                Michigan: http://www.ed.gov/about/offices/list/oig/auditreports/a05f0007.pdf
                Nevada: http://www.ed.gov/about/offices/list/oig/auditreports/a09f0002.pdf
                New Jersey: http://www.ed.gov/about/offices/list/oig/auditreports/a02f0006.pdf

CONSOLIDATING   The ESEA, as amended by NCLB, requires that states encourage schools to consolidate
FUNDS           federal, state and local funding for school-wide programs in order for the schools to have
                more flexibility in how they use those funds. We examined compliance with this provision
                by the Illinois State Board of Education (ISBE) and found that, while there were no state
                fiscal or accounting barriers, ISBE had not encouraged school-wide programs to
                consolidate funds from federal, state and local sources, and none of the schools we
                reviewed was consolidating funds. Based on our findings, we recommended that the
                Department require ISBE to encourage LEAs, as well as schools, to consolidate funds by
                providing information to them about the potential benefits of doing so, and providing
                guidance on how to consolidate funds. We also recommended that ISBE be required to
                amend its accounting and administrative manuals to encourage consolidating funds in
                schoolwide programs. ISBE agreed that, at the time of our review, it had not encouraged
                consolidating funds in school-wide programs, but stated that it had taken action since our
                review to address this issue. http://www.ed.gov/about/offices/list/oig/auditreports/
                a07e0029.pdf

                Individuals with Disabilities Education Act
                                            The Individuals with Disabilities Education Act (IDEA) of
                                            1997, Part B, as amended, requires states to expend local and
                                            state funds for special education in a year at the same or higher
                                            level as the previous year. This provision ensures that the funds
                                            are used to supplement and not supplant local, state and other
                                            federal funds. We conducted an audit at the Minnesota
                                            Department of Education (MDE) to see if MDE maintained a
                                            total state-level maintenance of effort, if it considered all
                                            agencies that contribute to the provision of the services that
                                            assist students with disabilities (including non-educational
                agencies), and if it monitored LEAs' maintenance of effort for FY 2003-04. We could not
                determine if MDE maintained a total state-level maintenance of effort or adequately
                monitored local maintenance of effort, as it had not considered contributions made by all
                agencies, as required. We encouraged the Department to require MDE to obtain training
                to ensure it understands all administrative aspects of the program, and then recalculate its
                state and local level maintenance of effort. If MDE does not meet maintenance of effort
                based on its recalculation, it should return funds to the Department. MDE concurred with
                the finding and the recommendations. http://www.ed.gov/about/offices/list/oig/
                auditreports/a05f0012.pdf




                                                   11
                                                                     Semiannual Report To Congress: #51

                  Expenditures by Grantees

NEW YORK CITY     Our audit to determine if Department funds disbursed for New York City Department of
DEPARTMENT OF     Education (NYCDE) telecommunications services were excessive or erroneous found that
EDUCATION         NYCDE could not support expenditures for federal funds disbursed for these services as it
                  did not maintain an adequate archiving system to retrieve requested documents. NYCDE
                  could not provide support for 243 transactions totaling over $1.5 million, which represents
                  75 percent of the dollar amount of transactions within our sample. We also questioned the
                  propriety of $5.1 million charged to federal grants for telecommunications services that
                  were not in our sample. In addition, NYCDE used approximately $46,000 in federal funds
                  for telecommunications purposes that were unallowable under the Department's grants. As
                  a majority of Department grant funds flowed through New York State Department of
                  Education (NYSDE), we recommended that the Department, through NYSDE, require
                  NYCDE to provide sufficient documentation to support the $1.5 million in sampled
                  transactions and $5.1 million in untested transactions charged to Department grants,
                  implement internal controls for proper record keeping, return to the Department
                  approximately $46,000 in improper costs, establish internal controls to ensure proper
                  allocation of telecommunications services prior to payment, and provide an analysis of all
                  charges to Department grants as additional phone lines may have been disconnected.
                  NYSDE concurred with the findings and recommendations. http://www.ed.gov/about/
                  offices/list/oig/auditreports/a02e0008.pdf

WYANDANCH UNION   We reviewed Wyandanch Union Free School District's (Wyandanch) ESEA Title I, Part A
FREE SCHOOL       and Title II non-salary expenditures to ensure they were allowable in accordance with
DISTRICT (LONG,   applicable laws and regulations. We found Wyandanch's records for $6.6 million of Title I
ISLAND, NEW       and Title II expenditures were unauditable. Wyandanch had weak controls over its
YORK)             accounting functions, including reconciliations, re-classifications and recording of
                  expenditures that adversely affected Wyandanch's ability to properly administer the funds.
                  We made a number of recommendations, including that the Department instruct NYSDE
                  to require Wyandanch to provide proper support for the $6.6 million in Title I and Title II
                  expenditures for the audit period, and return any unsupported amounts to the Department.
                  NYSDE concurred with all findings and recommendations with the exception of the
                  finding that Wyandanch's records were unauditable. http://www.ed.gov/about/offices/list/
                  oig/auditreports/a02e0031.pdf

LOUISIANA         Prior to the devastation from Hurricanes Katrina and Rita, we concluded audits at the
DEPARTMENT OF     Louisiana Department of Education (LDE) and four LEAs in Louisiana. Our audit sought
EDUCATION         to determine whether the LDE properly monitored LEAs to ensure that they accounted for
                  and used ESEA Title I, Part A funds in accordance with applicable laws and regulations.
                  We found that LDE drew down just under $505 million in Title I funds, and the four LEAs
                  we audited requested reimbursement for over $131 million. LDE did not provide
                  sufficient monitoring of LEAs to ensure Title I funds were accounted for and used in
                  accordance with applicable laws and regulations, and made reimbursement payments to
                  the four LEAs totaling over $70 million that we found were not properly supported.
                  Because it did not provide adequate monitoring to all LEAs, LDE did not have adequate
                  assurance that Title I funds were properly accounted for and used to benefit the needs of
                  low-achieving children, especially in high-poverty schools. To correct this condition,
                  LDE developed a risk-based audit plan following a recommendation by the Louisiana


                                                    12
                                                            Semiannual Report To Congress: #51

       Legislative Auditor's Office. LDE created another monitoring protocol for selecting LEAs
       for site visits and technical assistance, and has revised its requirements for documentation
       to support reimbursement claims from one of the LEAs. Based on our review of the
       revised requirements, we believe that the LDE is working to improve the accountability for
       Title I funds. In addition, recognizing the impact of the storm devastation to the Louisiana
       area, we recommended a Cooperative Audit Resolution and Oversight Initiative approach
       be adopted by the Department in resolving these audits. http://www.ed.gov/about/offices/
       list/oig/auditreports/a06f0002.pdf

       Unsolicited Grants
       In June 2002, the Texas Business and Education Coalition (TBEC) made a presentation to
       Department officials on its Texas Scholars program. The program encourages high school
       students to complete rigorous courses in math, science and foreign language. It also
       teaches local Scholars Coalitions how to fund local programs, which in turn provide
       mentors to students. TBEC later submitted an undated, unsolicited proposal to the
       Department to operate the State Scholars Initiative on behalf of the federal government.
       TBEC's proposal was to create a national program using the Texas Scholars program as a
       model, and included the creation of the Center for State Scholars (Center) to help states
       systematically create self-sustaining, successful, localized versions of the State Scholars
       Initiative. In August 2002, the Department awarded the Center a four-year grant, totaling
       $9.6 million, to be used for administrative purposes and to provide start-up funds to
       participating states for their scholars program. We conducted an audit to determine if the
       Center used grant funds in accordance with the requirements of all applicable laws,
       regulations, and its cooperative agreement with the Department. We also examined
       whether the Center had the administrative capability to administer the program
       nationwide. Our audit revealed that the Center did not properly account for and use over
       $1 million of State Scholars Initiative funds, did not have the administrative capability to
       administer the grant during the first two years, and may not have had the administrative
       capability to continue to administer the grant moving forward. In addition, the Center did
       not have adequate grant funds to cover the contract obligations incurred during the first
       two years of the grant. We made a number of recommendations, including that the
       Department instruct the Center to provide sufficient documentation to support the $1
       million of State Scholars Initiative expenditures or refund the amount to the Department.
       The Center, which generally agreed with our findings, went out of business on September
       30, 2005. http://www.ed.gov/about/offices/list/oig/auditreports/a06f0001.pdf

       High-Risk Grantees
       We continue to identify and provide recommendations to the Department for improving
       fiscal and integrity issues in states designated as high-risk, as such designation denotes that
       federal funding faces significant vulnerability to waste, fraud and abuse.

GUAM   In 2003, the Department designated the Guam Department of Education (GDE) as a high-
       risk grantee. In April 2005, we concluded an audit to confirm whether selected personnel
       costs and purchases that GDE reported to the Department as expenditures for the
       Consolidated Grants to Insular Areas (Consolidated Grants) and Special Education Grants
       to States-Part B (Special Education Grants) in its Special Conditions Compliance Reports,


                                          13
                                                                     Semiannual Report To Congress: #51

                 complied with applicable Federal laws and regulations. We found that GDE improperly
                 charged the Consolidated Grants for costs obligated and paid for after the period for use of
                 the funds expired. GDE also improperly charged a Special Education Grant for a purchase
                 that was not necessary to the operation of the grant and charged the total costs of purchases
                 for supplies and materials, capital outlay, equipment and contractual services to the grants
                 when portions of the costs were allocable to other activities. We also found that GDE did
                 not have required documentation for personnel costs charged to the grants and GDE's
                 inventory records did not reflect the current location of some equipment purchases. We
                 made a number of recommendations, including that the Department require GDE to review
                 costs reported on the Special Condition Compliance Reports to identify costs obligated
                 and paid for after the funding period expired and return those amounts to the Department.
                 While GDOE generally concurred with our findings and recommendations, it did not agree
                 with our finding that it improperly charged the Consolidated Grants and Special Education
                 Grants for the entire costs of transactions when portions of the costs were allocable to
                 other activities. http://www.ed.gov/about/offices/list/oig/auditreports/a09e0027.pdf

VIRGIN ISLANDS   In 1998, the Department designated the Virgin Islands Department of Education as a high-
                 risk grantee. In 2005, we concluded an audit of the Virgin Islands Department of Health's
                 Administration of the IDEA Infants and Toddlers Program to determine the effectiveness
                 of the third-party fiduciary contractual arrangement between the Virgin Islands
                 Department of Health (VIDH) and a private fiduciary agent, Lutheran Social Services
                 (LSS), to manage the territory's IDEA, Part C, (Infants and Toddlers) grants. While we
                 found that the contractual arrangement between the VIDH and LSS has been generally
                 effective, we also found that the 1999 through 2002 grants need reconciliation, as there
                 was over $200,000 in mispostings. In addition, the Virgin Islands Department of Finance
                 imposed administrative requirements on the Infants and Toddlers Program that negatively
                 impacted the administration of the Infants and Toddlers grants. These requirements are
                 independent of the Infants and Toddlers contractual arrangement with LSS. Our
                 recommendations included that the Department require VIDH to eliminate the
                 requirements. VIDH did not comment on the audit report. http://www.ed.gov/about/
                 offices/list/oig/auditreports/a02e0020.pdf

                 Identifying and Investigating Corruption
                 Here are examples of our investigative work in this area over the past six months:

                 Three officials of the Prepared Table Charter School in Houston, Texas were sentenced for
                 their roles in defrauding federal and state government agencies. The individuals received
                 prison terms ranging from 15 months to 6 years. A federal task force consisting of the
                 OIG, the FBI, the IRS Criminal Investigation Division, the U.S. Department of
                 Agriculture/OIG, and the Texas Education Agency developed information that the
                 officials misreported student attendance data, which enabled the school to receive funding
                 to which it was not entitled. From academic year 1999/00 through academic year 2001/02,
                 the school received over $2.5 million in federal funds. The school also commingled its
                 finances with a church in Houston. The school's charter was revoked in August 2002.

                 A Philadelphia man was sentenced to 87 months incarceration, five years supervised
                 release and required to pay $365,000 in restitution to four different victims, including the
                 Community College of Philadelphia (CCP). The individual was convicted by a federal


                                                    14
                                                   Semiannual Report To Congress: #51

jury of being a member of a Racketeering Influenced Criminal Organization (RICO), as
well as conspiracy, extortion and bank fraud. The RICO enterprise -- of which he was the
head -- was involved in numerous schemes to obtain money and property by defrauding
government entities, financial institutions, businesses and individuals through extortion
and bribery. The predicate offenses charged in the RICO indictment came from
defrauding the Adult Basic Education program of CCP.

Two brothers were sentenced for their role in a scheme to fraudulently obtain English as a
Second Language-Citizenship funding. The brothers directed and operated a non-profit,
community-based organization called Templo Calvario Legalization and Education Center
(TCL&E) in California, where they administered a federally funded ESL-Citizenship
program. During the 1995-96 award year, TCL&E received over $850,000 in federal
funds from the California Department of Education (CDE) to teach this program. Our
investigation disclosed that the brothers knowingly provided materially false and
fraudulent statements and representations to support their claim to CDE. TCL&E claimed
that they provided over 352,000 hours of instruction for over 3,600 students, but our
investigation revealed that there were only eight part-time teachers. The brothers were
sentenced to serve 12 and 18 months in prison and 36-month supervised release following
their prison terms and ordered to pay $199,000 in restitution.

Four former employees of the Massachusetts Career Development Institute (MCDI) were
sentenced for their roles in a conspiracy involving "no show" and "partial show"
employees. The four, including the former Executive Director and former president,
received sentences ranging from 6 months in a halfway house to 21 months incarceration
and were ordered to pay fines and restitution totaling $89,000 and $66,119. MCDI is a
quasi private/public department of the City of Springfield, Massachusetts, providing
educational and job training programs with funds provided by the Department of
Education and other federal agencies.

A former teacher involved in extortion and theft at the Orleans Parish School District
(Orleans Parish) in Louisiana, was sentenced to approximately one year of incarceration,
three years' probation and 150 hours of community service and ordered to pay restitution
of over $39,000 for her role in a $70,000 kickback scheme. A joint OIG investigation with
the FBI and New Orleans Police Department revealed that the former teacher conspired
with an Orleans Parish payroll clerk in a kickback scheme where teachers, secretaries and
para-educators received monies they did not earn. The clerk made over $39,000 in illegal
payments to the teacher in the form of false travel reimbursements, fraudulent stipend
payments and duplicate payroll checks from January 2003 to February 2004. In return for
the illegal payments, the teacher kicked back 50 percent of the money to the clerk. The
case initially came to light through an OIG audit that sought to determine whether Orleans
Parish, through the New Orleans Public Schools, properly accounted for and used ESEA,
Title I, Part A funds. To date, six individuals have been sentenced in this case. OIG won a
2005 PCIE Award for Excellence for its work in this case.

The former Executive Director of the Osage County Interlocal Cooperative in Hominy,
Oklahoma was sentenced to one year imprisonment, two years of probation, and ordered to
pay over $82,000 in restitution and to continue cooperating with the Internal Revenue
Service (IRS) to determine the full amount of restitution owed for her role in a student aid
fraud scheme. The former Executive Director operated a home-based grant writing


                                  15
                                                                   Semiannual Report To Congress: #51

                business and served as an educational software sales representative, using her position to
                approve software sales to companies she represented. She was subsequently paid tens of
                thousands of dollars in commission sales, based on purchases made with grant funds from
                the Department. She also wrote several successful grant applications for school districts
                on contingent contracts, a practice prohibited by the Department.


INTERNAL OPERATIONS AND FINANCIAL MANAGEMENT
ACCOUNTABILITY
                Work conducted this reporting period in the area of the Department's internal operations
                shows that the Department has much to do to fully achieve effective oversight of and
                accountability for its internal operations. The Department must increase its diligence to
                prevent waste, fraud and abuse in this area, particularly with contract monitoring,
                information technology (IT) security, data reliability, contract payments, purchase card use
                and its internal audit follow-up processes.

                Public Relations Contracts
                At the request of House Committee on Education and the Workforce Ranking Member
                George Miller (D-California), we conducted two reviews of the Department's public
                relations contracts. The first examined the Department's award and administration of its
                contract with Ketchum, Inc. (Ketchum), a public relations firm hired to publicize the
                NCLB, and the second reviewed the Department's contracts involving media services to
                determine if any resulted in covert propaganda.

KETCHUM, INC.   We reviewed the Department's initial award to Ketchum and the subsequent work requests
                involving the Graham Williams Group (GWG) to see if they were in compliance with the
                Federal Acquisition Regulations and other pertinent contract law. We also reviewed the
                effectiveness of the oversight function with respect to the Ketchum contract and the GWG
                work requests. Overall, we noted no violations of pertinent contract law and found no
                evidence of any ethical violations in the formation of the Ketchum contract and GWG
                work requests. We did, however, find that Department officials made poor management
                decisions, including the failure to provide critical information to decision-makers, and
                exercised poor judgment and oversight. As a result, the Department paid for work that
                most likely did not reach its intended audience and paid for deliverables that were never
                received. The advertisements that were produced under the work requests appear to be of
                poor quality, and the Department has no assurance that the ads received the airtime for
                which it paid. The documentation we reviewed appears to indicate that payment was
                attributed solely to the production of ads and airtime. However, because other activities
                relating to commentary were included in the various Statements of Work and activity
                reports, and because the invoices received and paid by the Department were vague, the
                appearance is that the Department may have been paying for more than just the
                advertising. The Department concurred with our recommendations. http://www.ed.gov/
                about/offices/list/oig/aireports/a19f0007.pdf




                                                  16
                                                                       Semiannual Report To Congress: #51

CONTRACTS AND       We conducted an inspection of 20 Department-identified contracts and 15 grants, all
GRANTS FOR PUBLIC   involving media services to determine if any resulted in covert propaganda, and concluded
RELATIONS           that none of the grants resulted in covert propaganda under the guidance of the Office of
SERVICES            Legal Counsel of the U.S. Department of Justice and the Government Accountability
                    Office. However, we did find that three grants resulted in the production of op-eds that
                    should have included necessary disclaimer language. The Department must now
                    determine the amount of improper expenditures associated with the publication of these
                    op-eds and initiate a recovery action for the unallowable use of funds. Six other grants
                    produced informational materials that also did not disclose the role of the Department. If
                    the Department determines that disclaimers should have been included, additional
                    recovery actions may need to be initiated. While we were unable to conclude, based on the
                    materials available for our review, that any of the contracts resulted in covert propaganda,
                    one contract requires follow-up by the Department. We have also recommended that the
                    Department take additional action to ensure that contract and grant personnel understand
                    the prohibition on the use of appropriated funds for publicity or propaganda and when
                    disclosure of the Department's role is required and that this information is included in
                    contracts, as needed, and clearly communicated to grantees. http://www.ed.gov/about/
                    offices/list/oig/aireports/i13f0012.pdf

                    Information Technology Security
                    In our last Semiannual Report to Congress (No. 50), we reported that the Department must
                    make improvements to ensure its systems security to protect its property and meet federal
                    government standards. Work concluded during this reporting period revealed some
                    incremental improvements and some repeat findings in areas tested in previous years, as
                    well as weaknesses in the Department's incident handling program. We performed
                    independent audits and tested the effectiveness of the Department's information security
                    plans, programs and practices as they relate to the implementation of the Federal
                    Information Security Management Act (FISMA) for fiscal year 2005. The audits assessed
                    the agency's overall compliance with the security provisions of FISMA and related
                    information security standards identified within Office of Management and Budget
                    (OMB) guidelines, as well as evaluated the security performance of the Department's
                    systems through testing of general and technical information system security controls.

                    The three information technology (IT) security audits performed in fiscal year 2005
                    identified security weaknesses that the Department must address to maintain the security
                    certification and accreditation of its systems. We determined that certain management,
                    operational and technical security controls need improvement to adequately protect the
                    confidentiality, integrity and availability of systems and data located at two Department
                    data centers. In addition, we found that remote data centers are not identifying and
                    reporting all computer security incidents to the Department's Computer Incident Response
                    Capability (EDCIRC); and outsourced data center contractors have conflicting
                    responsibilities to manage network infrastructure and to detect, respond, and report
                    computer security incidents to EDCIRC and the OIG as required by FISMA. The
                    Department generally concurred with most of our findings. Our FISMA/IT security audits
                    fall under exemption (b)(2) of the Freedom of Information Act and, for security purposes
                    and to maintain the integrity of the Department's critical data, are not uploaded onto the
                    Web site or shared outside of official channels.



                                                      17
                                                    Semiannual Report To Congress: #51

Data Reliability
Data reliability is both a compliance issue and a performance issue. For example, NCLB
ties funding directly to student achievement and accountability, thus requiring states to
report on performance in many areas. The utility of this reporting, and ultimately funding
decisions, depends on the collection of reliable data. Without reliable data, the
Department cannot make effective decisions on its programs, or know if the funds it
disburses are indeed reaching the intended recipients. In 2004, it launched the
Performance-Based Data Management Initiative (PBDMI) to streamline existing data
collection efforts and information management processes. It has established an Education
Data Exchange Network to provide state educational agencies and the federal government
the capacity to transfer and analyze information about education programs.

We conducted an audit to determine if significant implementation and project management
risks have been effectively mitigated to ensure that the PBDMI will meet its investment
goals of consolidating current data collection activities in a way that improves data quality
and reduces the reporting burden for national education partners. We also examined
whether system development methodologies are ensuring that system functionality
requirements have been adequately defined and whether the Department's Enterprise
Architecture (EA) has been consistently updated to support the technical requirements and
business processes of PBDMI. Our audit identified issues with certain system
implementation and project management controls which will require additional attention
to ensure that PBDMI will meet intended project goals. We also identified deficiencies in
the Department's EA that may hinder the success of PBDMI. The Department generally
concurred with our findings and recommendations. http://www.ed.gov/about/offices/list/
oig/auditreports/a11e0003.pdf

Prompt Payment Act
In 1982, the U.S. Congress enacted the Prompt Payment Act (Act) to require federal
agencies to pay their bills on a timely basis, pay interest penalties when payments are made
late and take discounts only when payments are made by the discount date. During this
reporting period, we concluded an audit to determine the Department's compliance with
the Act and the adequacy of its internal controls to ensure its compliance. Our audit
revealed, for the period January 1, 2004 through September 30, 2004, that the Department
did not comply with the Act and did not have adequate internal controls to ensure
compliance with the Act. We found incorrect receipt dates were used to calculate invoice
payment due dates, adjustments to the payment process are needed to comply with the Act
and Department policy, and annual quality control procedures need to be developed and
reviews need to be conducted. As a result, we project that about 3,100 invoice payments
during the review period had underpaid interest. In addition, we estimate that the total
amount of interest underpayments during the review period was no less than $175,135 and
no more than $353,055. To correct the weaknesses identified, we made a number of
recommendations, including that the Department develop a special use report to ensure
that invoices needing prior period adjustments have time to be properly processed and paid
in accordance with the Act. We suggested that the Department prepare a written reminder
to procurement staff regarding the requirements for properly annotating the date of receipt
of invoices, and what dates should be used as receipt dates in its systems, cease combining
current and overdue invoices, and strengthen controls over the invoice approval process to


                                   18
                                                   Semiannual Report To Congress: #51

ensure timely request of payment. The Department generally concurred with our findings
and recommendations. http://www.ed.gov/about/offices/list/oig/auditreports/
a17e0008.pdf

Purchase Cards
In 2000, OIG reviewed the use and processes associated with purchase cards. At that time,
we noted several deficiencies in the Department's purchase card program and provided
recommendations to help safeguard against potential misuse or waste and ensure that
purchase card transactions serve program needs. During this reporting period, we
conducted a follow-up, Department-wide audit, with all but four offices completed. While
we found that the Department had made some progress, there are still weaknesses
throughout the Department that must be addressed. Overall, we found that the offices did
not always obtain and maintain adequate documentation to support purchases and did not
always provide documentation to support that authorization was obtained for items
requiring special approvals or clearance. Without adequate supporting documentation, the
offices do not have assurance that purchases were appropriate and were made in
accordance with Federal regulations and Department policy and procedures. We also
found that staff was not always familiar with Department policy, and Department officials
did not always ensure that cardholders submitted complete supporting documentation prior
to approving the statements for payment. Approving purchases without adequate
supporting documentation could result in payment for goods and services that were not
received and increases the Department's vulnerability to potential misuse or waste of
government resources. The offices have generally concurred with our findings and
recommendations. Reports for the reviews we have completed can be found at http://
www.ed.gov/about/offices/list/oig/whatsnew.html

Internal Audit Follow-Up
We examined the Department's internal audit follow-up process in four principal offices:
FSA, OPE, the Office of the Chief Information Office (OCIO), and the Office of the Chief
Financial Officer (OCFO.) We issued final reports on all but the OCFO office during this
reporting period. Our audit sought to evaluate the Department's controls to ensure that
agreed upon corrective actions have been taken and verify whether adequate
documentation was maintained to support that corrective action items have been
implemented as stated in the Department's corrective action plans. With the three offices
we completed, our review found that while the offices generally maintained files with
documentation regarding audit follow-up activity, the audit follow-up process did not
support the completion of all corrective action items. In addition, the process did not
always support completion of corrective action items on the date reported in the
Department's Audit Accountability and Resolution Tracking System (AARTS). We
learned that although staff were aware of the Department's documentation requirements
for audit resolution files and generally believed that completion of corrective action items
was adequately documented, we found that documentation did not support completion of
all corrective action items reviewed. As a result, these offices do not have assurance that
identified deficiencies were corrected. As such, the risk remains that related programs
may not be effectively managed. The offices concurred with the findings and provided
corrective actions to address each of the recommendations included in our reports.


                                  19
                                                     Semiannual Report To Congress: #51

Reports for the reviews we have completed can be found at http://www.ed.gov/about/
offices/list/oig/whatsnew.html

Department's Contractor 6C Security Clearance Procedures
We reviewed the security clearances of Department Network contractor employees to
determine whether those employees who are required to have 6C clearances have them.
We determined that not all contractor employees who have direct access to the
Department's network have the security clearances assigned to their positions. We found
that clearance of 12 OCIO contractor employees were pending without preliminary
clearance, two contractor employees had only 5C clearances, and one contractor employee
had not turned in paperwork to request a security clearance. We also identified problems
with the Office of Personnel Security's system for tracking 6C clearances and the OCIO
staff's inability to readily identify contractor employees and the security clearance status of
each of those employees. We recommended that OCIO ensure that each contractor
employee who has direct access to the Department's network and is in a position requiring
a 6C security clearance have an active or preliminary clearance and that OCIO deny direct
network access to any contractor employees without appropriate clearance. We have also
recommended that OCIO staff should improve their methods of managing and monitoring
records and that the Office of Personnel Security should modify its Security Tracking
System. The Department generally concurred with two of our five recommendations.
However, we had no basis for modifying our findings and recommendations.

Inspection of Access to the National Student Loan Data System
We reviewed the National Student Loan Data System (NSLDS) Security Plan and its
compliance with the Department's Handbook OCIO-1, Handbook for Information
Technology Security Policy (ED IT Security Policy) and policy supplements. We found
that the NSLDS Security Plan did not comply with the ED IT Security Policy and
supplements in five areas: new hire training for contractors, recertification requirements,
password controls, system log trail reviews, and account termination procedures. In
addition, we found that 25 of the 99 NSLDS contractor employees did not have the
security clearances required by their position sensitivity levels and the NSLDS Security
Plan. We recommended that FSA amend the NSLDS Security Plan to comply with the ED
IT Security Policy. We recommended that FSA revise its NSLDS Security Plan to
incorporate a written timeline for contractor IT awareness training, annual recertification
procedures, minimum password length and 90-day password aging timeframe, weekly
system log reviews, and a formalized policy on account termination procedures for
Departmental employees. We also recommended that FSA improve oversight of
contractor responsibilities, ensure that contractor employees have the appropriate security
clearance for their positions, and ensure that contractor employees in High Risk Level
Positions without a preliminary clearance are denied access to High Risk material. The
Department concurred with our findings and recommendations.

Identifying and Investigating Internal Abuse
During this reporting period, the former Deputy Under Secretary for Safe and Drug Free
Schools was sentenced to one year of probation, a $5,000 fine and 100 hours of


                                   20
                                                             Semiannual Report To Congress: #51

         community service and ordered to pay over $8,000 in restitution, after pleading guilty to
         misdemeanor conflict-of-interest charges. An OIG investigation developed evidence that
         the former official approved travel for himself at government expense that involved at
         least some travel for his personal purposes. On some of these trips, the former Deputy
         Under Secretary conducted at least some personal business, some of which was
         reimbursed by the government. He also took sick leave and received his government
         salary for days on which he was working and being paid as a visiting judge in the state of
         Texas. He also failed to record the monies he received as salary from the state of Texas on
         his U.S. government financial disclosure forms.


OTHER ACTIVITIES AND ACCOMPLISHMENTS
         Hurricane Disaster Relief
         Like many employees throughout the federal government, OIG staff have contributed
         money, clothing, food, backpacks, school supplies, other items and, most importantly,
         their time to help with hurricane relief and recovery efforts. Three OIG staffers have
         already been deployed to the area, with others likely to follow shortly. We are very proud
         of these staffers' selflessness and determination to help our fellow Americans rebuild their
         lives, their homes and their communities.

         OIG Expands Cybercrime Activities
                                    OIG took its operational IT capability to a higher level in
                                    2004 by creating Information Technology Audit and
                                    Computer Crime Investigations (ITACCI) - the first-of-its-
                                    kind "one-stop shopping" department for all IT-related issues
                                    including the review of enterprise architecture management,
                                    FISMA activity and investigating network intrusions, as well
                                    as traditional computer crime investigations. With the
                                    current focus on expanding electronic government, it is even
                                    more critical that the Department's systems are effectively
         implemented, managed, safe and secure, and that all cyber-related issue are properly
         identified and addressed.

         During this reporting period, we opened our state-of-the-art computer lab, and now have
         the capability of providing in-house expert forensic media analysis, data mining and
         advanced statistical techniques. In addition, the lab serves as a testing ground for our IT
         auditor security assessment tools in a controlled environment. We are the first in the IG
         community to launch an effort of this kind. OIG staff has already provided tours to
         officials and investigators with other federal agencies, discussing our forensics and
         network intrusion response capabilities, as well as opportunities for collaboration on issues
         related to information security, forensic technology and forensic lab architecture.

         Nonfederal Audits
         Participants in Department programs are required to submit annual audits performed by
         independent public accountants (IPAs). We perform quality control reviews (QCRs) of


                                            21
                                                                      Semiannual Report To Congress: #51

                   these audits to assess their quality. We completed 47 QCRs of audits conducted by 42
                   different IPAs, or offices of firms with multiple offices. We concluded that 7 (15 percent)
                   were acceptable, 31 (66 percent) were technically deficient, and 9 (19 percent) were
                   substandard. We made a referral of one IPA to the American Institute of Certified Public
                   Accountants for possible disciplinary action. This one referral was made for substandard
                   work and was based on a QCR reported in a prior semiannual report.

                   President's Council on Integrity and Efficiency
                   PCIE Audit Committee

                   Inspector General Higgins continues to chair the Audit Committee of the President's
                   Council on Integrity and Efficiency (PCIE). Highlights this reporting period include:

NATIONAL SINGLE    We continue to lead an intergovernmental project to accurately assess the quality of all
AUDIT SAMPLING     audits conducted under the Single Audit Act (Public Law 104-156) statistical sampling.
PROJECT            During this reporting period, the core work of the project continued, as we conducted
                   QCRs of selected audits. These QCRs are to be completed in the next period.

STUDY ON COSTS     The Department of Homeland Security Financial Accountability Act, P.L. 108-330, directs
AND BENEFITS OF    the Chief Financial Officers Council and the PCIE to conduct a joint study on the potential
OBTAINING AN       costs and benefits of requiring the Chief Financial Officers (CFOs) Act agencies to obtain
OPINION ON         audit opinions on internal control over financial reporting. Our staff led the effort, which
INTERNAL CONTROL   recommends that all CFO Act agencies should not be required to conduct such an audit at
                   this time. Rather, agencies should be given the opportunity to implement the revised OMB
                   Circular A-123, Management's Responsibility for Internal Control and obtain an internal
                   control audit only where particular circumstances warrant such an audit.

PEER REVIEW        In April 2005, the Audit Committee finalized the Guide For Conducting External Peer
GUIDE              Reviews Of The Audit Operations Of Offices Of Inspector General, which provides
                   guidance for PCIE and Executive Council on Integrity and Efficiency (ECIE) members.
                   The objective of the PCIE/ECIE external peer review program is to determine whether the
                   reviewed audit organization's internal quality control system was adequate and complied
                   with to provide reasonable assurance that applicable auditing standards, policies, and
                   procedures were met. The program is intended to be positive and constructive and should
                   be carried out in that spirit. The guide has been updated to reflect the June 2003 revisions
                   to the Government Auditing Standards.

                   PCIE Information Technology Roundtable
                   As the sponsor of the PCIE IT Roundtable, OIG is responsible for coordinating inter-
                   agency meetings to share knowledge, procedures and techniques to aid in facilitating
                   effective IT audits, evaluations and inspections. During this reporting period, the IT
                   Roundtable discussed numerous issues facing the cyberworld, including systems banners
                   and reasonable expectation of privacy issues, as well as the Computer Matching Act and
                   trace evidence collection procedures for Windows systems that have been compromised
                   by an unauthorized intruder.



                                                     22
                                                                                       Semiannual Report To Congress: #51

Reporting Requirements of the Inspector General Act, as amended
                                                                                                             Table          Page
    Section                                          Requirement                                            Number         Number
 5(a)(1) and
                  Significant Problems, Abuses, and Deficiencies
 5(a)(2)
                  Activities and Accomplishments                                                                              21

 5(a)(3)          Uncompleted Corrective Actions
                  Recommendations Described in Previous Semiannual Reports on Which Corrective
                                                                                                                1             23
                  Action Has Not Been Completed
 5(a)(4)          Matters Referred to Prosecutive Authorities
                  Investigation Services Cumulative Actions (April 1, 2005 to September 30, 2005)               7             38
                  Statistical Profile                                                                           8             43
 5(a)(5) and
                  Summary of Instances Where Information Was Refused or Not Provided
 6(b)(2)
 5(a)(6)          Listing of Reports
                  ED/OIG Audit Services Reports on Department Programs and Activities                           2             25
                  Other OIG Reports on Department Programs and Activities                                       3             29
 5(a)(7)          Summary of Significant Audits
                  Activities and Accomplishments                                                                               1
 5(a)(8)          Audit Reports Containing Questioned Costs
                  Inspector General Issued Audit Reports with Questioned Costs                                  4             30
 5(a)(9)          Audit Reports Containing Recommendations That Funds Be Put to Better
                  Use
                  Inspector General Issued Audit Reports with Recommendations for Better Use of
                                                                                                                5             31
                  Funds
 5(a)(10)         Summary of Unresolved Audit Reports Issued Prior to the Beginning of
                  the Reporting Period
                  Unresolved Reports Issued Prior to April 1, 2005                                              6             31
 5(a)(11)         Significant Revised Management Decisions
 5(a)(12)         Significant Management Decisions with Which OIG Disagreed                                                    4
                  Unmet Intermediate Target Dates Established by the Department Under
 5(a)(13)
                  the Federal Financial Management Improvement Act of 1996


Table 1: Recommendations Described in Previous Semiannual
Reports on Which Corrective Action Has Not Been Completed
                                                                                                    Number of                Latest
                                                                                                 Recommendations             Target
                                                                                    Total                                     Date
  Report           Report Title (Prior Semiannual           Date        Date     Monetary                               (Per Coreective
  Number          Report [SAR] Number and Page)            Issued Resolved Findings               Open          Closed   Action Plan)
Section 5(a)(3) of the Inspector General Act as amended requires a listing of each report resolved before the commencement of the
reporting period for which management has not completed corrective action. The reports listed below are OIG internal and nationwide
audit reports.




                                                                  23
                                                                                   Semiannual Report To Congress: #51

Table 1: Recommendations Described in Previous Semiannual
Reports on Which Corrective Action Has Not Been Completed (Cont.)
                                                                                               Number of         Latest
                                                                                            Recommendations      Target
                                                                           Total                                  Date
 Report          Report Title (Prior Semiannual           Date   Date    Monetary                              (Per Coreective
 Number         Report [SAR] Number and Page)            Issued Resolved Findings           Open      Closed    Action Plan)

NEW AUDITS SINCE LAST REPORTING PERIOD
Federal Student Aid (FSA)
A11-D0002 Audit of the Implementation of Electronic     3/31//04   6/9/04                    1          7       12/31/05
          Signatures for Select Federal Student Aid
          (FSA) Transactions (OM/OCIO also
          designated as action Official) (SAR 48, pg.
          17)
Office of the Chief Financial Officer (OCFO)
A02-D0015 Audit of the 2001 Virtual Data Center        8/10/04     9/29/04                   1          2        9/30/11
          Transformation Task Order (Task Order)
          (SAR 49, pg. 14)
A04-D0015 Review of the monitoring of grant award      8/2/04      9/30/04                   1          0       10/31/05
          lapsed funds by the Office of the Chief
          Financial Officer (OCFO), the Office of
          Elementary and Secondary Education
          (OESE), the Office of Special Educational
          and Rehabilitative Services (OSERS), and
          the Office of Vocational and Adult Education
          (OVAE) during fiscal years (FY) 1998, 1999,
          and 2000 (SAR 49, pg. 14)
A07D0005 Audit of the U.S. Department of Education's 4/1/04        6/30/04                   3          2       12/30/05
          (Department's) oversight of grantees subject
          to the restricted indirect cost rate (RICR)
          provisions in 34 C.F.R. Parts 75 & 76 (see
          note 2) (SAR 49, pg. 14)
A17-D0001 Audit to determine if the United States      10/6/03     4/8/04       $28          2          7       12/30/05
          Department of Education (Department)                               (see note 3)
          contract payments were being made from the
          proper appropriated funds for the period
          January 22, 2002, through December 31,
          2002 (SAR 48, pg. 16)
Office of Vocational and Adult Education (OVAE)
A03-D0013 Audit of Perkins III Performance Data at      5/24/04    9/9/04                    2          6        4/30/06
          OVAE (SAR 49, pg. 16)
AUDITS REPORTED IN PREVIOUS SEMIANNUAL REPORTS
Federal Student Aid (FSA)
A05-A0025 Great Lakes Higher Education Guaranty         3/30/01    1/31/02                   3          4       12/30/05
          Corporation’s (Great Lakes Guaranty)
          Administration of the Federal Family
          Education Loan (FFEL) Program Federal
          and Operating Funds (SAR 42, pg. 22)




                                                              24
                                                                                       Semiannual Report To Congress: #51

Table 1: Recommendations Described in Previous Semiannual
Reports on Which Corrective Action Has Not Been Completed (Cont.)
                                                                                                     Number of                  Latest
                                                                                                  Recommendations               Target
                                                                          Total                                                  Date
 Report         Report Title (Prior Semiannual           Date   Date    Monetary                                              (Per Coreective
 Number        Report [SAR] Number and Page)            Issued Resolved Findings                 Open          Closed          Action Plan)
A05-D0001 Audit of Educational Credit Management      3/20/03 2/27/04 $103,000,000                5              2              3/30/06
          Corporation's (ECMC) Administration of the                   (See note 1)
          Federal Family Education Loan (FFEL)
          Program Federal and Operating Fund for the
          period April 1, 2000 through March 31, 2001
          (SAR 46, pages 7 & 8)
A05-D0010 Oversight Issues Related to Guaranty        7/31/03 2/25/04                               2             3             9/30/06
          Agencies' Administration of the Federal
          Family Education Loan Program Federal and
          Operating Funds (SAR 47, pg. 2)
Office of the Chief Financial Officer (OCFO)
A03-B0018 Audit of the U.S. Department of Education’s 10/24/01 3/26/02                              1             1             3/30/06
          Discretionary Grants Monitoring Process
          (SAR 44, pg. 3)
Office of Postsecondary Education (OPE)
A09-C0014 Office of Postsecondary Education,              7/23/03 10/31/03                       0            13                    *
             Accrediting Agency Evaluation Unit's
             Review of Selected Accrediting Agency
             Standards and Procedures (SAR 47, pg. 2)
* Closure of audit was not completed by the Department by the end of reporting period (9/30/2005).
Note 1 - U. S. Department of Education recovered the excess reserve funds on 2/10/2004 in the amount of $103,000,000.00.
Note 2 - We identified $4,600,000 in Better Use of Funds (1-Time) for audit control number A07-D0005.
Note 3 - U.S. Department of Education has recovered funds in the amount of $28.00.


Table 2: ED/OIG Audit Reports on Education Department Programs
and Activities (April 1, 2005 to September 30, 2005)
  Report                                                                 Date     Questioned Unsupported                No. of
 Number                           Report Title                          Issued       Costs*         Costs       Recommendations
Section 5(a)(6) of the Inspector General Act as amended requires a listing of each report completed by OIG during the reporting period.
AUDIT REPORTS
Federal Student Aid (FSA)
A02-E0003 The University of the Virgin Islands' Administration of 4/8/05           $81,857        $20,220                25
          Title IV Student Financial Assistance Programs Needs
          Improvement
A03F0001 School Eligibility Channel's (SEC) Initial Review and 9/20/05                                                    4
          Quality Control Review Process for Electronic
          Submissions of Institutions' Financial Statements
          Through the Department's eZ-Audit System
A05E0017 Special Allowance Payments to New Mexico                 5/24/05       $18,415,862                               7
          Educational Assistance Foundation for Loans Funded
          by Tax-Exempt Obligations




                                                                  25
                                                                                   Semiannual Report To Congress: #51

Table 2: ED/OIG Audit Reports on Education Department Programs
and Activities (April 1, 2005 to September 30, 2005) (Cont.)
 Report                                                              Date     Questioned Unsupported        No. of
 Number                        Report Title                         Issued     Costs*       Costs      Recommendations
A05-E0028 Guaranty agencies' oversight of Federal Family            8/9/05                                    3
          Education Loan (FFEL) Program Loans Disbursed
          Directly to Borrowers for Attendance at Foreign
          Schools during the period January 1, 2004, through
          September 30, 2004 (OPE also designated as action
          official)
A09E0015 University of Phoenix's Processing of Student Financial    8/24/05    $341,994                       7
          Aid Disbursements for the Higher Education Act, Title
          IV Programs
A11-F0003 Security Review of the Rockville Computer Center -        9/29/05                                  16
          Fiscal Year 2005
A11-F0004 Security Review of the Virtual Data Center - Fiscal       9/29/05                                  11
          Year 2005
A19F0001 Audit Followup Process for Office of Inspector General     9/8/05                                    4
          Internal Audits in Federal Student Aid
Institute of Education Sciences (IES)
A19F0021 Controls Over Purchase Card Use in the Institute of        9/14/05                                   3
         Education Sciences
Office of the Chief Financial Officer (OCFO)
A02-E0008 U.S. Department of Education Funds Disbursed for          6/14/05    $45,696    $6,711,128          8
          New York City Department of Education
          Telecommunication Services
A09-E0027 Guam Department of Education's Reported Costs for         4/18/05    $130,198    $9,978            14
          Consolidated Grants to Insular Areas and the Special
          Education Grants to States-Part B (OESE and OSERS
          also designated as action officials)
A09F0011 Sanders Unified School District No. 18's                   8/4/05     $347,519                       2
          Administration of 21st Century Community Learning
          Centers Grant No. S287A010956 (OESE also
          designated as action official)
A17-E0008 Department of Education's Compliance with the             9/28/05                                   8
          Prompt Payment Act
A19F0013 Controls Over Purchase Card Use in the Office of the       9/14/05                                   3
          Chief Financial Officer
Office of the Chief Information Officer (OCIO)
A19F0003 Audit Followup Process for Office of Inspector General 9/21/05                                       3
         Internal Audits in the Office of the Chief Information
         Officer
Office for Civil Rights (OCR)
A19F0019 Controls Over Purchase Card Use in the Office for          9/14/05                                   4
         Civil Rights
Office of English Language Acquisition (OELA)
A19F0008 Controls Over Purchase Card Use in the Office of  7/14/05                                            5
         English Language Acquisition, Language
         Enhancement, and Academic Achievement for Limited
         English Proficient Students




                                                               26
                                                                                     Semiannual Report To Congress: #51

Table 2: ED/OIG Audit Reports on Education Department Programs
and Activities (April 1, 2005 to September 30, 2005) (Cont.)
 Report                                                                Date     Questioned Unsupported         No. of
 Number                          Report Title                         Issued     Costs*       Costs       Recommendations
Office of Elementary and Secondary Education (OESE)
A02-E0031 Wyandanch Union Free School District's (Wyandanch)          9/14/05   $165,326**   $6,637,561          8
          Elementary and Secondary Education Act (ESEA) Title
          I, Part A (Title I) and Title II1 Non-Salary Expenditures
          for the period July 1, 1999 through June 30, 2004
A02-F0006 New Jersey Department of Education's (NJDOE)                9/14/05                                    4
          compliance with Title I, Part A (Title I), of the
          Elementary and Secondary Education Act of 1965
          (ESEA), as amended by the No Child Left Behind Act
          of 2001, Public School Choice and Supplemental
          Educational Services (SES) provisions for the 2004-
          2005 school year that began July 1, 2004 (OII also
          designated as action official)
A05F0007 The Michigan Department of Education's Compliance            8/2/05     $18,532                         4
          with the Public School Choice and Supplemental
          Educational Services Provisions of the No Child Left
          Behind Act of 2001(OII also designated as action
          official)
A06-E0018 Title I funds administered by the East Baton Rouge          6/8/05     $28,187     $120,059**          4
          Parish School District (East Baton Rouge Parish) for
          the period July 1, 2001, through December 31, 2003
A06-F0002 Louisiana Department of Education (LDE), and Four           8/4/05                                     2
          Selected Local Educational Agencies (LEAs) for the
          period July 1, 2001, through December 31, 2003
A07E0029 Illinois State Board of Education's (ISBE's)                 6/9/05                                     2
          Administration of Provisions under Title I of the
          Elementary and Secondary Education Act of 1965
          (ESEA) Relating to Consolidating Funds in Schoolwide
          Programs
A07F0003 Illinois State Board of Education's Compliance with the      8/23/05                                    4
          Public School Choice and Supplemental Educational
          Services Provisions of the No Child Left Behind Act
          (OII also designated as action official)
A09-F0002 Nevada Department of Education's Compliance with            7/14/05                                    8
          the Public School Choice and Supplemental
          Educational Services Provisions (OII also designated
          as action official)
A19F0018 Controls Over Purchase Card Use in the Office of             9/27/05                                    4
          Elementary and Secondary Education
Office of the General Counsel (OGC)
A19F0022 Controls Over Purchase Card Use in the Office of             9/27/05                                    3
         General Counsel
Office of Postsecondary Education (OPE)
A05F0011 College of Lake County Community College District      4/4/05                                         None
         No. 532 (College)
A19F0002 Audit Followup Process for Office of Inspector General 9/15/05                                          4
         Internal Audits in the Office of Postsecondary
         Education



                                                                 27
                                                                                     Semiannual Report To Congress: #51

Table 2: ED/OIG Audit Reports on Education Department Programs
and Activities (April 1, 2005 to September 30, 2005) (Cont.)
 Report                                                                Date     Questioned Unsupported        No. of
 Number                     Report Title                              Issued     Costs*       Costs      Recommendations
A19F0017 Controls Over Purchase Card Use in the Office of             9/14/05                                   3
         Postsecondary Education
Office of Planning, Evaluation and Policy Development (OPEDPD)
A11-E0003 Audit of the Department's Performance Based Data            9/29/05                                  14
          Management Initiative
Office of Safe and Drug-Free Schools (OSDFS)
A03-E0008 The State of New Jersey's Compliance With The               8/30/05                                   7
          Unsafe School Choice Option Provision
A04E0007 Georgia Department of Education's Compliance with            6/7/05                                    4
          the Unsafe Schools Choice Option Provision
A06-E0028 Texas Department of Education's Compliance with the         6/15/05                                   7
          Unsafe School Choice Option
A07E0027 Iowa Department of Education's Compliance with the           6/14/05                                   6
          Unsafe Schools Choice Option Provision
A19F0010 Controls Over Purchase Card Use in the Office of Safe        8/11/05                                   3
          and Drug-Free Schools
Office of Special Education and Rehabilitative Services (OSERS)
A02-E0020 The Virgin Islands Department of Health's                   9/28/05      **                          17
          Administration of the Infants and Toddlers Program
A05F0012 Minnesota Department of Education's Maintenance of           8/16/05                                   3
          Effort Under the Individuals with Disabilities
          Education Act of 1997, Part B, Program
A19F0005 Controls Over Purchase Card Use in the Office of             6/28/05                                   4
          Special Education and Rehabilitative Services
Office of Vocational and Adult Education (OVAE)
A06-F0001 State Scholars Initiative Grant for the period October 1,   6/1/05                $1,093,426          6
          2002, through September 30, 2004 (OCFO also
          designated as action official)
A19F0006 Controls Over Purchase Card Use in the Office of             7/1/05                                    6
          Vocational and Adult Education (OVAE)
ALTERNATIVE AUDIT SERVICES PRODUCTS
Federal Student Aid (FSA)
A05F0016 Illinois Designated Account Purchase Program's               8/22/05
         (IDAPP's) Compliance with Requirements for the
         Federal Family Education Loan Program (FFELP)
         (Audit Closeout Letter)
Office of Innovation and Improvement (OII)
A19F0012 Controls over Purchase Card Use in OII                       5/17/05
         (Audit Closeout Memorandum)
Office of Legislation and Congressional Affairs (OLCA)
A19F0011 Controls over Purchase Card Use in OLCA                      5/26/05
         (Audit Closeout Memorandum)




                                                                 28
                                                                                      Semiannual Report To Congress: #51

Table 2: ED/OIG Audit Reports on Education Department Programs
and Activities (April 1, 2005 to September 30, 2005) (Cont.)
 Report                                                                Date    Questioned Unsupported               No. of
 Number                          Report Title                         Issued    Costs*       Costs             Recommendations
  *  For purposes of this schedule, questioned costs include other recommended recoveries. Please see footnote under Table 4 for
        additional information regarding questioned and unsupported costs.
  ** Audit Report A02E0031 identified recommended adjustments of $5,913,394.
     Audit Report A06E0018 reported that $1,000 relating to a check writing error was recovered during the audit.
     Audit Report A02E0020 identified a one-time better use of funds of $327,577.

  DESCRIPTION OF ALTERNATIVE PRODUCTS
  Attestation reports convey the results of attestation engagements performed within the context of their stated scope and
  objective(s). Attestation engagements can cover a broad range of financial or non-financial subjects and can be part of a financial
  audit or performance audit. They include the examination, review, or performance of agreed-upon procedures on a subject matter
  or an assertion about a subject matter and reporting on the results.
  Audit closeout memoranda/letters are issued to provide written notification to auditees of audit closure when the decision is
  made to close an assignment without issuing an audit report.
  Interim audit memoranda/letters are used to notify Department management or the audited entity of a serious and urgent
  condition or issue identified during an on-going audit assignment when there is a strong likelihood that waiting until the audit
  report's issuance would result in the loss of an opportunity to prevent or curtail significant harm to the Department’s interest.
  Management information reports provide Department management with information derived from audits (when the issuance
  of an audit report is not appropriate) or special projects that may be useful in its program administration or conduct of program
  activities.
  Pre-award Attest Services are provided by OIG in response to requests by Department contracting or program office staffs.
  These include performing field pricing support or making an assessment of an offeror's accounting system.
  Contract Closeout Audit Services are provided by OIG to assist in the formal act of settling a contract. The process includes a
  determination that the contracted goods and/or services have been provided/delivered, and a determination of the total amount to
  be actually paid to the contractor under the contract.

  One interim audit memorandum was issued during SAR 51, and is not publicly distributed.

Table 3: Other ED/OIG Reports on Education Department Programs
and Activities (April 1, 2005 to September 30, 2005)
    Report Number                                          Title of Report                                         Date Issued
Section 5(a)(6) of the Inspector General Act as amended requires a listing of each report completed by OIG during the reporting
period.
Federal Student Aid (FSA)
       I13F0004           Inspection of Access to the National Student Loan Data System (NSLDS)                               8/1/05
                          (Inspection Memorandum)
       S07F0015           Research Project on Independent Study Programs (Special Project Closeout                           6/20/05
                          Memorandum - OPE also designated as action official)
Office of the Chief Financial Officer (OCFO)
       S07F0001           Results of the Office of Inspector General (OIG) Special Project Reviewing the                     4/26/05
                          eServicing Model/Formula for Determining Savings (Special Project Memorandum)
Office of the Secretary (OS)
       A19F0007           Review of Formation Issues Regarding the Department of Education's Fiscal Year                     4/15/05
                          2003 Contract with Ketchum, Inc. for Media Relations Services (Inspection Report)
       I13F0012           Review of Department Identified Contracts and Grants for Public Relations Services                  9/1/05
                          (Inspection Report)
Office of Safe and Drug-Free Schools (OSDFS)
       L03F0004           District of Columbia Office of Inspector General's Report on the District of                        5/4/05
                          Columbia Public Schools' Incident Reporting (Alert Memorandum State and Local
                          No. 05-04)




                                                                 29
                                                                                          Semiannual Report To Congress: #51

Table 3: Other ED/OIG Reports on Education Department Programs
and Activities (April 1, 2005 to September 30, 2005)
      Report Number                                             Title of Report                                            Date Issued
Office of the Chief Information Officer (OCIO)
          I13F0002           Review of the Department's Contractor 6C Security Clearance Procedures                                4/26/05
                             (Inspection Alert Memorandum)
     DESCRIPTION OF INSPECTIONS AND OTHER PRODUCTS (OIG products not conducted in accordance with generally accepted
     government auditing standards)
     Alert memoranda are prepared when auditors identify a serious condition requiring immediate Department management action
     that is either outside the agreed-upon objectives of an on-going audit assignment or is identified while engaged in work not related
     to an on-going assignment when an audit report will not be issued.
     Inspections are processes aimed at evaluating, reviewing, studying, and analyzing the programs and activities of the Department
     for the purposes of providing information to managers for decision making, for making recommendations for improvements to
     programs, policies or procedures, and for administrative action.
     Special projects are work that result in the issuance of a product or report that is not conducted in full compliance with the audit,
     inspection, or investigation standards.

     Alert memoranda and special project memoranda/reports are not on the OIG Web site and are not publicly distributed.

Table 4: Inspector General Issued Audit Reports with Questioned
Costs4
                                                                                          Number         Questioned1 Unsupported2
Section 5(a)(8) of the Inspector General Act as amended requires for each reporting period a statistical table showing the total number
of audit reports, the total dollar value of questioned and unsuppported costs, and responding management decision.
A.        For which no management decision has been made before the                          61         $169,027,8233 $124,061,312
          commencement of the reporting period (as adjusted)
B.        Which were issued during the reporting period                                      10            $40,081,937     $14,592,372
               Subtotals (A + B)                                                                71         $209,109,760      $138,653,684
C.         For which a management decision was made during the reporting period                 9            $9,245,285        $6,534,719
           (i) Dollar value of disallowed costs                                                              $9,245,285        $6,534,719
           (ii) Dollar value of costs not disallowed                                                                  $0                 $0
D.         For which no management decision was made by the end of the reporting                62         $199,864,475      $132,118,965
           period
E.         For which no management decision was made within six months of issuance              52         $159,782,538      $117,526,593
     1Questioned costs are costs that are questioned because of either an alleged violation of a provision of a law, regulation, contract,
     grant, cooperative agreement, or other agreement or document governing the expenditure of funds or a finding that the
     expenditure of funds for the intended purpose is unnecessary or unreasonable. Other recommended recoveries are funds
     recommended for recovery for reasons other than questioned costs or unsupported costs. Since the Inspector General Act does
     not provide for this type of monetary finding, other recommended recoveries are combined with the "questioned costs" category
     for reporting in the OIG's Semiannual Report to Congress. The category is usually used for findings involving recovery of
     outstanding funds and/or revenue earned on federal funds. The amount also includes any interest due the Department resulting
     from auditee's use of funds. Other recommended recoveries are included in the questioned cost category. In addition, amounts
     reported for in this category are combined with unsupported costs for reporting in the IG’s Semiannual Report to Congress.
     2
       Unsupported costs are costs that are questioned because, at the time of the audit, such costs were not supported by adequate
     documentation.
     3
       Beginning balance for Questioned Costs was increased by $3,255 for A04B0019 (recoveries made during audit) to coincide with
     database.
     4
       None of the audits reported in this table were performed by the Defense Contract Audit Agency.




                                                                     30
                                                                                       Semiannual Report To Congress: #51

Table 5: Inspector General Issued Audit Reports with
Recommendations for Better Use of Funds1
                                                                                                    Number             Dollar Value
Section 5(a)(9) of the Inspector General Act as amended requires for each reporting period a statistical table showing the total number
of audit reports and the total dollar value of recommendations that funds be put to better use by management.
A.        For which no management decision has been made before the commencement of the                  6             $238,736,149
          reporting period (as adjusted)
B.        Which were issued during the reporting period                                                  1                   327,577
               Subtotals (A + B)                                                                         7             $239,063,726
C.        For which a management decision was made during the reporting period
          (i) Dollar value of recommendations that were agreed to by management                          1                   $95,883
          (ii) Dollar value of costs that were not agreed to by management
D.        For which no management decision was made by the end of the reporting period                   6             $238,967,843
E.        For which no management decision was made within six months of issuance                        5             $238,640,266
1
    None of the audits reported in this table were performed by the Defense Contract Audit Agency.

Table 6: Unresolved Reports Issued Prior to April 1, 2005
                                                                                                               Total        No. of
 Report                                       Report Title                                         Date      Monetary      Recom-
 Number                    (Prior Semiannual Report [SAR] Number and Page)                        Issued     Findings     mendations
Section 5(a)(10) of the Inspector General Act as amended requires a listing of each report issued before the commencement of the
reporting period for which no management decision had been made by the end of the reporting period.
New Since Last Reporting Period
Federal Student Aid (FSA)
A04-E0003 Review of Student Enrollment, Professional Judgment Actions, and Dependency             11/8/04     $26,400           3
          Overrides at Salem College (SAR 50, pg. 21)
          Status: FSA informed us that the audit was closed on 5/20/2005, however the
          required documentation for resolving this audit was not available in the
          Department's tracking system by 9/30/2005.
A05-E0013 Audit of the Administration of the Student Financial Assistance Programs at the Ivy     2/25/05    $1,645,160         3
          Tech State College Campus in Gary, Indiana, during the period July 1, 2002,
          through June 30, 2003 (SAR 50, pg. 21)
          Status: FSA informed us that the audit was placed on administrative stay
          7/22/2005. OCFO/Post Audit Group (PAG) provided us a copy of the approved
          "request for administrative stay" dated 7/22/2005.
A06-D0018 Audit of Saint Louis University's Use of Professional Judgment for the Two-Year         2/10/05    $1,458,584         6
          Period from July 2000 through June 2002 (SAR 50, pg. 21)
          Status: FSA informed us that the audit was placed on administrative stay -
          8/5/2005.
A09-D0024 American River College's Compliance with Student Eligibility Requirements for           12/1/04    $3,024,665         3
          Title IV Student Aid Programs (SAR 50, pg. 21)
          Status: FSA informed us that the audit is still being reviewed by FSA San
          Francisco Case Team.
Office of the Chief Financial Officer (OCFO)
A05-D0041 University of Illinois at Chicago's Upward Bound project (OPE also designated as 12/20/04           $223,057          8
          action official) (SAR 50, pg. 22)
          Status: OCFO informed us that it is reviewing information provided by auditee and
          awaiting additional data. Expected completion date: 3/31/2006.




                                                                  31
                                                                                     Semiannual Report To Congress: #51

Table 6: Unresolved Reports Issued Prior to April 1, 2005 (Cont.)
                                                                                                              Total         No. of
 Report                                        Report Title                                   Date          Monetary       Recom-
 Number                (Prior Semiannual Report [SAR] Number and Page)                       Issued         Findings      mendations
A05-E0002 Audit of the University of Illinois at Chicago's Student Support Services program 12/15/04        $260,050          6
          (OPE also designated as action official) (SAR 50, pg. 22)
          Status: OCFO informed us that it is reviewing information provided by auditee and
          awaiting additional data. Expected completion date: 3/31/2006.
A05-E0018 University of Illinois at Chicago's Upward Bound Math and Science project (OPE 12/17/04            $274,493         7
          also designated as action official) (SAR 50, pg. 22)
          Status: OCFO informed us that it is reviewing information provided by auditee and
          awaiting additional data. Expected completion date: 3/31/2006.
Office of Elementary and Secondary Education
A02-E0019 Puerto Rico Department of Education's Migrant Education Program (SAR 50, pg.           3/30/05     $43,824          5
          22)
          Status: Audit was placed on administrative stay - 8/18/2005. CAROI Status
A04-E0002 Georgia Department of Education's Administration of Title I, Part A of the             11/8/04                      8
          Elementary and Secondary Education Act of 1965 (SAR 50, pg. 22)
          Status: OESE informed us that the audit was placed on administrative stay
          9/23/2005. The administrative stay request was submitted after the anticipated
          resolution date of 5/8/2005.
A05-E0014 Audit of the Indiana Department of Education's Compliance with Title I, Part A, of     2/18/05                      2
          the Elementary and Secondary Education Act of 1965, as Amended by the No
          Child Left Behind Act of 2001, Public School Choice and Supplemental
          Educational Services provisions for the 2003-2004 school year that began July 1,
          2003 (OII also designated as action official) (SAR 50, pg. 22)
          Status: OESE informed us that the Program Determination Letter (PDL) was
          issued on 9/26/2005, however OESE must address an issue that was brought to its
          attention on 9/20/2005 and 10/11/2005, and this audit should be removed from the
          "Unresolved Audit Report" in our next SAR.
A06-E0008 Audit of the Title I Funds Administered by the Orleans Parish School Board for the     2/16/05    $73,936,273       7
          Period July 1, 2001, through December 31, 2003 (SAR 50, pg. 23)
          Status: Audit was placed on administrative stay - 8/18/2005.
A06-E0012 Audit of the Title I Funds Administered by the Caddo Parish School District, for the   12/7/04     $488,314         1
          Period July 1, 2001, through December 31, 2003 (SAR 50, pg. 23)
          Status: OESE informed us that the audit was placed on administrative stay
          10/7/2005. The administrative stay request was submitted after the anticipated
          resolution date of 6/7/2005.
A06-E0017 Title I funds Administered by the Beauregard Parish School District, for the Period    12/16/04    $540,443         5
          July 1, 2001, through December 31, 2003 (SAR 50, pg. 23)
          Status: OESE informed us that the audit was on administrative stay 10/7/2005.
          The administrative stay request was submitted after the anticipated resolution date
          of 6/16/2005.
A07-E0018 Audit of the Missouri Department of Elementary and Secondary Education's               12/20/04                     2
          Administration of Provisions Under Title I of the Elementary and Secondary
          Education Act of 1965 Relating to Consolidating Funds in Schoolwide Programs
          (SAR 50, pg. 23)
          Status: OESE informed us that the PDL was issued on 9/30/2005, however OESE
          must address an issue that was brought to its attention on 9/20/2005 and
          10/11/2005, and this audit should be removed from the "Unresolved Audit Report"
          in our next SAR.




                                                                32
                                                                                     Semiannual Report To Congress: #51

Table 6: Unresolved Reports Issued Prior to April 1, 2005 (Cont.)
                                                                                                              Total        No. of
 Report                                     Report Title                                          Date      Monetary      Recom-
 Number                  (Prior Semiannual Report [SAR] Number and Page)                         Issued     Findings     mendations
Office of Safe and Drug-Free Schools (OSDFS)
A09-E0025 California Department of Education's Compliance with the Unsafe School Choice          3/24/05                     7
          Option Provision (SAR 50, pg. 23)
          Status: OSDFS informed us that staff are reviewing information concerning the
          audit findings and may require additional information from the auditee in order to
          resolve this audit.
Office of Special Education and Rehabilitative Services (OSERS)
A02-E0009 Puerto Rico Department of Education's Special Education Program Services (SAR 12/14/04            $5,935,988       3
          50, pg. 23)
          Status: No comments were provided to OIG.
Reported in Previous Semiannual Report
Federal Student Aid (FSA)
A02-B0026 Audit of Taylor Business Institute's Administration of Title IV Student Financial       7/8/03     $2,089          5
          Assistance Programs (SAR 47, pg. 13)
          Status: FSA informed us that the audit was closed 3/17/2005. The required
          documentation for resolution of this audit was not available in the Department’s
          tracking system as of 9/30/2005.
A04-B0015 Review of Cash Management and Student Financial Assistance Refund Procedures           9/26/02    $997,313         7
          at Bennett College (OPE designated as collateral action office for this report)
          (SAR 45, pg. 16)
          Status: This audit was previously closed in CAR, the Department’s prior tracking
          system. FSA needs to enter the requested documentation (amended ACD and final
          program determination letter) into the Department’s current tracking system,
          AARTS.
A04-B0019 Advanced Career Training Institute's Administration of the Title IV Higher             9/25/03    $7,472,583      14
          Education Act Programs (SAR 47, pg. 13)
          Status: FSA informed us that the audit is still being reviewed by FSA Atlanta Case
          Team.
A04-E0001 Review of Student Enrollment and Professional Judgment Actions at Tennessee            9/23/04    $2,458,347       7
          Technology Center at Morristown, TN (SAR 49, pg. 14)
          Status: FSA informed us that the audit was granted an Administrative Stay on
          2/28/2005, extended on 5/24/2005 and again on 9/12/2005 via memos approved by
          OCFO/PAG. OCFO/PAG provided us a copy of the approved "extension of
          administrative stay" dated 9/12/2005.
A05-C0015 Audit of American School of Technology's Administration of the Title IV, HEA           3/21/03    $1,311,249      13
          Programs, Columbus, Ohio (SAR 46, pg. 12)
          Status: FSA informed us that the audit was closed 4/7/2005. However, the required
          documentation (audit clearance document) for resolution of this audit must be
          generated in the Department’s tracking system.
A05-D0020 Audit of the Administration of the Federal Pell Grant program by The Alexander         12/11/03   $1,718,869       1
          Institute during the period September 28, 2000, through June 30, 2003 (SAR 48, pg.
          17)
          Status: FSA informed us that the audit is still being reviewed by the FSA Chicago
          Case Team.
A06-70005 Professional Judgment at Yale University (SAR 36, pg. 18)                              3/13/98     $5,469          3
          Status: FSA informed us that it is awaiting a policy decision to address and resolve
          this finding in the final audit determination letter.




                                                                33
                                                                                     Semiannual Report To Congress: #51

Table 6: Unresolved Reports Issued Prior to April 1, 2005 (Cont.)
                                                                                                             Total        No. of
 Report                                        Report Title                                       Date     Monetary      Recom-
 Number                  (Prior Semiannual Report [SAR] Number and Page)                         Issued    Findings     mendations
A06-70009 Professional Judgment at University of Colorado (SAR 37, pg. 17)                       7/17/98    $15,082         4
          Status: FSA informed us that it is awaiting a policy decision to address and resolve
          this finding in the final audit determination letter.
A06-A0003 International Business College's Administration of Title IV Student Financial          3/28/01   $461,035         4
          Assistance Programs (SAR 42, pg. 22)
          Status: FSA informed us that the audit is still being reviewed by the FSA Dallas
          Case Team.
A06-B0014 Audit of United Education Institute's Compliance with the Title IV, Student            9/6/01     $7,285          1
          Financial Assistance, Verification Requirements (SAR 43, pg. 12)
          Status: This audit was previously closed in CAR, the Department’s prior tracking
          system. FSA needs to enter the requested documentation (amended ACD and final
          program determination letter) into the Department’s current tracking system,
          AARTS.
A07-23545 State of Missouri, Single Audit Two Years Ended June 30, 1991                          4/1/93    $1,048,768      18
          Status: FSA/Financial Partners Service (FPS) is working with OGC and OIG on
          the resolution of the Missouri audits. FSA stated that draft responses were
          forwarded to OGC for review and comment and are awaiting OGC comments.
A07-33123 State of Missouri, Single Audit Year Ended June 30, 1992                               3/7/94    $187,530        18
          Status: FSA/FPS is working with OGC and OIG on the resolution of the Missouri
          audits. FSA stated that draft responses were forwarded to OGC for review and
          comment and are awaiting OGC comments.
A07-D0026 Audit of Kaw Area Technical School (SAR 49, pg. 14)                                    5/20/04   $882,445         3
          Status: FSA informed us that the Audit was granted an Administrative Stay on
          11/12/2004, extended on 2/17/2005 & again on 4/20/2005 via memos approved by
          OCFO/PAG. OCFO/PAG provided us a copy of the approved "extension of
          administrative stay" dated 4/20/2005. FSA also stated that the audit was closed on
          4/28/2005. However the required documentation is needed in the Department's
          tracking system.
A09-70015 Associated Technical College Eligibility of Institutions to Participate in Title IV    9/9/98    $8,600,000       7
          Programs & Other Issues (SAR 37, pg. 16)
          Status: FSA/SEC/CMO senior managers are thoroughly reviewing the 90/10
          calculations before approving the final audit determination letter.
N06-90010 Inspection of Parks College's Compliance with Student Financial Assistance             2/9/00    $169,390         1
          Requirements (SAR 40, pg. 18)
          Status: FSA Dallas Case Team denied school's recertification on December 31,
          1999. School closed February 5, 2000.
Office of the Chief Financial Officer (OCFO)
A05-D0017 Audit of the University of Illinois at Chicago's Gaining Early Awareness and     1/14/04         $1,018,212       4
          Readiness for Undergraduate Programs Project (OPE also designated as action
          official) (SAR 48, pg. 15)
          Status: OCFO/PAG informed us that a draft program determination letter is with
          OGC.
A05-D0018 Audit of the Cesar Chavez Middle School's use of U.S. Department of Education 10/30/03           $196,805         3
          funds for the Period July 1, 2001, through June 30, 2002 (2001-2002 fiscal year)
          (Office of Innovation and Improvement (OII) also designated as action official)
          (SAR 48, pg. 15)
          Status: OCFO/PAG informed us that a draft program determination letter is with
          OGC.




                                                                34
                                                                                   Semiannual Report To Congress: #51

Table 6: Unresolved Reports Issued Prior to April 1, 2005 (Cont.)
                                                                                                            Total        No. of
 Report                                        Report Title                                      Date     Monetary      Recom-
 Number                 (Prior Semiannual Report [SAR] Number and Page)                         Issued    Findings     mendations
A05-D0023 Audit of the Aztlan Academy's use of U.S. Department of Education funds for the      10/14/03   $148,440         2
          Period July 1, 2001, through June 30, 2002 (2002 fiscal year) (OII also designated
          as action official) (SAR 48, pg. 15)
          Status: OCFO/PAG informed us that a draft program determination letter is with
          OGC.
A05-D0029 Audit of the Sonoran Desert School's use of U.S. Department of Education Funds       10/31/03    $37,452         4
          for the Period September 1, 2001, through August 31, 2002 (project period) (OII
          also designated as action official) (SAR 48, pg. 16)
          Status: OCFO/PAG informed us that the audit report is on administrative stay due
          to the matter being in litigation.
A06-C0034 Audit of the Texas Education Agency's Treatment of the Costs of Unused Accrued        7/8/03    $500,512         2
          Vacation Leave of Retiring or Separating Employees for the Period September 1,
          1999, through August 31, 2002 (SAR 47, pg. 14)
          Status: OCFO/PAG informed us it is continuing its efforts to close the audits of
          TEA (ACN 06-C0034) and Gonzales School District (ACN 09-D0015) in AARTS. It
          plans to have the audits closed in AARTS by December 31, 2005.
A06-D0023 Audit of the Dallas Independent School District's (DISD) Administration of the        8/4/04    $1,788,853       2
          Bilingual Education-Systemwide Improvement Grant for the period September 1,
          1999 through August 31, 2003 (OELA also designated as action official) (SAR 49,
          pg. 14)
          Status: OCFO/PAG informed us it is preparing program determination letter
          involving a number of complex policy issues. Expected completion date: 3/31/
          2006.
A07-D0002 Audit of the Talent Search Program at Case Western Reserve University (CWRU)         7/11/03    $212,428         5
          (SAR 47, pg. 14)
          Status: OCFO/PAG informed us it is reviewing additional documentation from
          auditee. Expected completion date: 3/31/2006.
A09-D0015 Gonzales Unified School District's Administration of the 21st Century Community      12/19/03   $474,005         4
          Learning Centers Grant No. S287A000704 (OESE also designated as action
          official) (SAR 48, pg. 16)
          Status: OCFO/PAG informed us it is continuing its efforts to close the audits of
          TEA (ACN 06-C0034) and Gonzales School District (ACN 09-D0015) in AARTS. It
          plans to have the audits closed in AARTS by December 31, 2005.
Office of Elementary and Secondary Education (OESE)
A01-90006 Puerto Rico Department of Education Needs Major Improvements in Its                  9/27/00    $181,305        18
          Administration of the Even Start Program (SAR 41, pg. 22)
          Status: OESE informed us that a CAROI team is resolving the audit.
A01-A0004 Puerto Rico Department of Education Did Not Administer Properly a $9,700,000         3/28/01    $7,841,493      14
          Contract with National School Services of Puerto Rico (SAR 42, pg. 21)
          Status: OESE informed us that a CAROI team is resolving the audit.
A02-50200 The Puerto Rico Department of Education Must Institute a Time Distribution           11/14/97                    1
          System (SAR 36, pg. 13)
          Status: OESE informed us that a CAROI team is resolving the audit.
A02-B0012 Puerto Rico Department of Education Did Not Administer Properly Title I              9/28/01    $8,412,280      10
          Contracts with National School Services of Puerto Rico for the 1999/2000 and
          2000/2001 School Years (SAR 43, pg. 11)
          Status: OESE informed us that a CAROI team is resolving the audit.
A02-B0025 Puerto Rico Department of Education Did Not Administer Properly Three                9/12/02    $2,146,023      10
          Contracts with R.V. Research and Management Group, Inc. (SAR 45, pg. 18)
          Status: OESE informed us that a CAROI team is resolving the audit.


                                                               35
                                                                                     Semiannual Report To Congress: #51

Table 6: Unresolved Reports Issued Prior to April 1, 2005 (Cont.)
                                                                                                              Total        No. of
 Report                                        Report Title                                       Date      Monetary      Recom-
 Number                  (Prior Semiannual Report [SAR] Number and Page)                         Issued     Findings     mendations
A02-C0017 Puerto Rico Department of Education's Administration of Contracts with the             6/10/03    $115,390         5
          League of United Latin American Citizens National Educational Service Center
          (OVAE also designated as action official for this report) (SAR 47, pg. 15)
          Status: OESE informed us that a CAROI team is resolving the audit.
A02-D0014 Puerto Rico Department of Education's Title I Expenditures for the Period, July 1,     3/30/04     $49,536         9
          2002 to December 31, 2002 (See note 1 at end of table) (SAR 48, pg. 17)
          Status: OESE informed us that a CAROI team is resolving the audit.
A02-D0023 Puerto Rico Department of Education's Salaries for the Period July 1, 1999 to June      6/2/04                     6
          30, 2003 (SAR 49, pg. 14)
          Status: OCFO/PAG informed us that the audit was reassigned to OESE on April
          13, 2005.
A02-E0007 Puerto Rico Department of Education's Administration of Contracts Awarded to            9/8/04    $3,354,545       2
          Rock Solid Technologies (SAR 49, pg. 15)
          Status: OESE informed us that the audit is in CAROI.
A05-C0012 Audit of East Cleveland City Schools' Administration of the 21st Century               9/18/02    $349,637         9
          Community Learning Centers Grant at Kirk Middle School for the Period June 1,
          1998, through December 31, 2001 (SAR 45, pg. 18)
          Status: OESE informed us that the PDL is in OGC for review as of 2/18/2005.
A05-C0022 Audit of Community Consolidated School District 62's Administration of the 21st        2/24/03    $126,709         3
          Century Community Learning Centers Grant for the Period June 1, 2000, through
          May 31, 2002 (Office of the Under Secretary (OUS) also designated as action
          official for this report) (SAR 46, pg. 13)
          Status: OESE informed us that the PDL was issued to auditee on 9/20/2005.
          However, the required documentation was uploaded into the Department’s tracking
          system after 9/30/2005. This audit should not appear in our next SAR.
A05-C0029 Audit of Minnesota's Local Educational Agencies' Allocations of Elementary and         9/30/03                     2
          Secondary Education Act, as amended, Title I, Part A, funds to schools for the
          Period July 1, 2001, through June 30, 2002 (2001-2002 school year) (see note 1 at
          end of table) (SAR 47, pg. 15)
          Status: OESE informed us that the PDL was issued to auditee on 9/30/2005.
          However, the required documentation was uploaded into the Department's tracking
          system after 9/30/2005. This audit should not appear in our next SAR.
A05-D0008 Audit of 20 Arizona Charter Schools' Uses of U.S. Department of Education Funds        11/6/03    $1,264,943      10
          for the Period October 1, 2000, through September 30, 2001 (Office of Special
          Education and Rehabilitative Services (OSERS) also designated as action official)
          (SAR 48, pg. 17)
          Status: OESE informed us that the PDL was issued on 9/29/2005. However, the
          required documentation has not been uploaded into the Department's tracking
          system.
A05-D0009 Audit of Cleveland Municipal School District's Set-Aside Funds for District-Wide        8/6/03     $43,067         7
          Activities (SAR 47, pg. 15)
          Status: OESE informed us that the PDL was issued on 9/30/2005. However, the
          required documentation was uploaded into the Department's tracking system after
          9/30/2005. This audit should not appear in our next SAR.
A05-D0021 Audit of the Detroit City School District's Administration of Title I, Part A of the   11/21/03   $278,414        10
          Elementary and Secondary Education Act of 1965, as amended, Set-Aside
          programs for the period July 1, 2002, through May 31, 2003 (SAR 48, pg. 17)
          Status: OESE informed us that the PDL was issued on 9/30/2005. However, the
          required documentation was uploaded into the Department's tracking system after
          9/30/2005. This audit should not appear in our next SAR.



                                                                36
                                                                                    Semiannual Report To Congress: #51

Table 6: Unresolved Reports Issued Prior to April 1, 2005 (Cont.)
                                                                                                           Total         No. of
 Report                                        Report Title                                     Date     Monetary       Recom-
 Number                 (Prior Semiannual Report [SAR] Number and Page)                        Issued    Findings      mendations
A05-D0038 Audit of Michigan's local educational agencies' allocations of Elementary and        6/25/04                     4
          Secondary Act of 1965, as amended, Title I, Part A, funds to schools for the period
          July 1, 2001, through June 30, 2002 (2001-2002 school year) (See note 1 at end of
          table) (SAR 49, pg. 15)
          Status: OESE informed us that the PDL was issued on 9/30/2005. However, the
          required documentation (amended ACD) is still needed in the Department's
          tracking system.
A09-D0014 Charter Schools Access to Title I Funds in the State of New York (OII is also        7/28/03                     6
          designated as action official for this report) (SAR 47, pg. 15)
          Status: OESE informed us that the PDL was issued on 9/26/2005. However, the
          required documentation has not been uploaded into the Department's tracking
          system.
A09-D0018 Charter Schools' Access to Title I and IDEA, Part B Funds in the State of California 3/29/04                    12
          (See note 1 at end of table) (SAR 48, pg. 18)
          Status: OESE informed us the PDL is with OGC for review.
Office of Postsecondary Education (OPE)
A07-B0011 Audit of Valencia Community College's Gaining Early Awareness and Readiness        5/8/03      $1,822,864        5
          for Undergraduate Programs Matching Requirement (SAR 47, pg. 15)
          Status: No Change - OPE previously informed us that it provided a response to
          OGC's proposed resolution of the audit in September 2004. OPE stated that OGC
          responded with provisions to the draft program determination letter in March 2005.
          OPE continues to work with OGC to resolve the audit.
A07-C0031 Audit of the Talent Search Program at Luther College (SAR 46, pg. 14)              3/28/03      $219,567         4
          Status: Audit was reassigned to OPE from OCFO - 9/28/2005. OPE continues to
          work with OIG to resolve the audit.
Office of Safe and Drug-Free Schools (OSDFS)
A01-90007 Puerto Rico Department of Education Needs Major Improvements in its                9/27/00      $82,452         17
          Administration of the Governor's Safe and Drug-Free School Program (SAR 41, pg.
          22)
          Status: No change in status - OSDFS previously informed us that the audit is being
          resolved as part of the CAROI settlement.
Office of Special Education and Rehabilitative Services (OSERS)
A02-B0014 Audit of the Puerto Rico Vocational Rehabilitation Administration (SAR 45, pg.     6/26/02     $15,800,000       5
          18)
          Status: No change in status - OSERS previously informed us that it is working with
          the OIG regarding the resolution of the audit.
A02-D0020 Puerto Rico Department of Education's Special Education Expenditures for the       3/30/04      $122,901         9
          Period, July 1, 2002 to December 31, 2002 (See note 1 at end of table) SAR 48, pg.
          18)
          Status: No change in status - OSERS previously informed us that the audit is being
          resolved through CAROI team effort.
  Note 1 - We identified $690,232 in annual better use of funds in audit A05-C0029, $48,835 in one-time better use of funds and
  $1,580,000 in annual better use of funds in audit A05-D0038, $151,205,677 in better use of funds in audit A02-D0014,
  $5,600,000 in better use of funds in audit A09-D0018, and $79,515,522 in better use of funds in audit A02-D0020. Status
  comments reflect documents received, comments agreed to, or comments provided by the Department.
  Note 2 - Status Comments reflect comments provided by the Department, comments agreed to, or documents obtained from
  AARTS.




                                                               37
                                                                                     Semiannual Report To Congress: #51

Table 7: Investigation Services Cumulative Actions
(April 1, 2005 to September 30, 2005)
                                                                                                           Fines/       Civil
                 Summary of Investigation                         Subject Name      Action This Period   Restitutions Recoveries
INSTITUTIONAL FRAUD
Failure to Make Refunds/Refund Fraud
Former president of MBTI Business Training Institute (MBTI)      Donald Brun      Convicted: 6/17/2005
pled guilty for participating in a scheme to defraud the
Department.
Former financial aid director of MBTI sentenced for role in a    Tammy Hermann Sentenced: 9/2/05           $2,100
scheme to defraud the Department.
President of Pittsburgh Beauty Academy in Pennsylvania           Arthur B.        Sentenced: 9/23/05       $83,998
sentenced for financial aid fraud.                               DeConciliis
Use of Ineligible Branch Locations
Former vice president of WTC signed a pretrial diversion         Paul Cox         Sentenced: 5/2/05
agreement, deferring prosecution of financial aid fraud.
Enrollment of Ineligible Students
School owner and employees sentenced for falsifying records    Mahmud Younis      Sentenced: 4/25/05      $918,525
and violations of regulations.                                 Walid Alsabbagh    Sentenced: 4/25/05      $25,300
                                                               Jamal Mourtada     Sentenced: 4/25/05
                                                               Muna Jaber         Sentenced: 4/25/05       $5,000
Executive director of Metro Technical Institute (MTI) pled     Phillip            Convicted: 7/6/05
guilty to participating in a scheme to defraud the Department. Zimmerman
Falsification of Attendance
Former owner of Hamilton Professional Schools pled guilty to Jorge Garrido        Convicted: 6/15/05
financial aid fraud and embezzlement.
Former registrar of Hamilton Professional Schools sentenced Gloria Villamil       Sentenced: 7/29/05       $22,637
for making false statements in connection with the
administration of Pell Grant funds.
School Employee Theft
Individual sentenced for participating in an illegal student     Michael Tate     Sentenced: 4/26/05       $4,142
refund scheme at LOC.
Individual sentenced for participating in an illegal student     Kelli Pollard    Sentenced: 6/16/05       $81,036
refund scheme at LOC.
Former payroll clerk sentenced for theft of funds from Orleans   Terri Morant     Sentenced: 4/13/05      $250,000
Parish School District (OSPD) in Louisiana.
Former teacher sentenced for participating in a kickback         Tremica Knight   Sentenced: 6/23/05       $39,888
scheme at OSPD.
Individual sentenced for participating in an illegal student     Marlon Briggs    Sentenced: 4/15/05       $23,180
refund scheme at LOC.
Individual sentenced for participating in an illegal student     Aaron Boone      Sentenced: 5/18/05       $57,411
refund scheme at LOC.
Former Lodge Grass School District employee sentenced for        Marion Calvin    Sentenced: 4/27/05       $3,541
theft of federal money and larceny.
Financial aid administrator sentenced for conspiracy to commit   Allison Smith    Sentenced: 6/16/05        $250
financial aid fraud.
Ability to Benefit tester sentenced for conspiracy to commit     Michelle Hardy   Sentenced: 6/15/05        $350
financial aid fraud.




                                                                  38
                                                                                         Semiannual Report To Congress: #51

Table 7: Investigation Services Cumulative Actions
(April 1, 2005 to September 30, 2005) (Cont.)
                                                                                                             Fines/       Civil
                  Summary of Investigation                         Subject Name    Action This Period      Restitutions Recoveries
Former Indiana University employee sentenced for financial        Monique Matson Sentenced: 6/15/05            $50
aid fraud.
Financial aid officer sentenced for grand theft and drug          Holly Clements-     Sentenced: 6/1/05
possession with intent to distribute.                             Chavira
Prepared Table Charter School officials sentenced for             Louvicy Wilcox      Sentenced: 9/2/05       $200
defrauding federal and state government agencies.                 Roshall Frank       Sentenced: 9/2/05       $100
                                                                  Anthony Mosley      Sentenced: 9/2/05       $600
Mother and daughter sentenced for financial aid fraud.            Linda Lee Stewart   Sentenced: 5/23/05    $148,300
                                                                  Stephanie Wanzo     Sentenced: 5/23/05    $81,571
Former Oklahoma State University, Oklahoma City campus            Jennifer Wilson     Civil                              $6,500
financial aid director reached a civil settlement with the U.S.                       settlement: 6/1/05
Attorney’s Office.
Two former elementary school principals and another               Judy Radcliff       Convicted: 9/12/05
individual pled guilty to conspiracy and theft of state and       Joycelyn Wilson     Convicted: 9/12/05
federal funds.                                                    Sandra Grady        Convicted: 9/12/05
Individual pled guilty for participating in a Title I and Reading Tammie Davis        Convicted: 9/16/05
Excellence Grant embezzlement scheme.
Fraudulent Work Study
Student pled guilty to the theft of federal college work-study Johnte Gaffney         Convicted: 7/15/05
funds.
New York City woman pled guilty to theft of government         Saadia Farooqi         Convicted: 9/16/05
funds.
Former Barton County Community College Assistant Coach Matt Skillman                  Convicted: 9/19/05
pled guilty to embezzlement of student financial aid funds and
mail fraud.
Submission of False Documents
Brothers sentenced for fraudulently obtaining federal ESL-        Michael Guzman Sentenced: 4/25/05         $199,400
Citizenship funds.                                                Robert Guzman II Sentenced: 4/25/05         $400
Loan Consolidation Schemes
Three former collection agents sentenced for fraudulently         Martina Brown       Sentenced: 7/14/05      $7,783
consolidating $3.8 million in defaulted student loans.            Melissa             Sentenced: 7/20/05     $20,240
                                                                  McKeever
                                                                  Barbara             Sentenced: 8/2/05      $25,394
                                                                  Szczublewski
RECIPIENT FRAUD
Falsification of Income
Husband and wife sentenced in fraud scheme.                   Dennis Lukasik Sentenced: 6/21/05            $2,074,220
                                                              Deborah Lukasik Sentenced: 6/21/05             $6,880
Student pays Department for fraudulently receiving Pell Grant Liza Draper                                                $10,000
Funds.
Boston Police Department clerk pled guilty to mail and wire Negisti Medhanie Convicted: 9/7/05
fraud related to student financial assistance applied for and
disbursed on behalf of her son.




                                                                   39
                                                                                          Semiannual Report To Congress: #51

Table 7: Investigation Services Cumulative Actions
(April 1, 2005 to September 30, 2005) (Cont.)
                                                                                                               Fines/       Civil
                  Summary of Investigation                           Subject Name       Action This Period   Restitutions Recoveries
New York man pled guilty to grand larceny related to theft of       Muhammad          Convicted: 8/5/05
student financial assistance, New York City Housing, and            Baaith
welfare funds.
Former Northwest Airlines pilot pled guilty to three counts of      Stephen           Convicted: 9/20/05
financial aid fraud.                                                Laurenzano
Former student pled guilty to falsifying FAFSAs for four            Amanda Shevlin    Convicted: 8/16/05
consecutive years.
Identity Fraud/Misuse of a SSN
Individual pled guilty to financial aid fraud.                      Fredrick Robinson Convicted: 7/21/05
New York woman sentenced for obtaining student financial            Vernita Nuey      Sentenced: 8/2/05       $179,189
assistance using multiple SSNs and falsely reporting that she
had never defaulted on a federal student loan.
New York woman sentenced for using another person’s                 Raymonda          Sentenced: 6/15/05       $9,750
identity to obtain FFEL and Pell Grant funds.                       Shallowhorn
Part-time college instructor pled guilty to financial aid fraud.    Raul Schutte      Convicted: 7/19/05
Former medical student entered into a pretrial diversion            Jose Pagan        Sentenced: 9/30/05       $59,451
agreement in U.S. District Court.
Man sentenced for using SSNs belonging to other individuals,        Daniel Nwabufoh Sentenced: 8/11/05        $138,634
as well as providing false information to the Commissioner of
Social Security to obtain multiple SSNs in an effort to conceal
from lenders, schools and the Department the number and
status of loans and other forms of student aid he received.
Individual pled guilty to financial aid fraud for using another     Christina Renteria Convicted: 7/12/05
SSN to obtain student financial assistance.
Individual sentenced for fraudulently receiving a Pell Grant        Vincent Pacecca   Sentenced: 6/16/05         $10
through the use of a second identity.
Falsification of Identity/Identity Theft
Individual pled guilty to bankruptcy fraud and agreed to pay        DeShawn Clark     Convicted: 5/11/05
restitution for money and merchandise received while using a
fraudulent SSN.
Individual sentenced for using the identity of another to apply     Paul Jenkins      Sentenced: 9/12/05       $15,272
for Direct PLUS loans and loans from private financial
institutions.
Ringleader sentenced for orchestrating a scheme in which she        Sharon Walker     Sentenced: 6/14/05      $414,572
and her co-conspirators used 41 identities to fraudulently obtain
student financial assistance.
Individual sentenced for participating in a scheme in which 41      Bessie Johnson    Sentenced: 5/12/05       $39,011
identities were used to fraudulently obtain student financial
assistance.
Individual sentenced for participating in a scheme in which 41      Bobby Poke Sr.    Sentenced: 4/27/05      $142,084
identities were used to fraudulently obtain student financial
assistance.
Sisters sentenced for participating in a scheme in which 41         Evelyn Walker     Sentenced: 5/18/05       $89,233
identities were used to fraudulently obtain student financial       Betty Walker      Sentenced: 5/18/05       $11,350
assistance.
Individual sentenced for participating in a scheme in which 41      Pamela Walker     Sentenced: 6/2/05        $10,830
identities were used to fraudulently obtain student financial
assistance.



                                                                     40
                                                                                           Semiannual Report To Congress: #51

Table 7: Investigation Services Cumulative Actions
(April 1, 2005 to September 30, 2005) (Cont.)
                                                                                                                     Fines/       Civil
                   Summary of Investigation                           Subject Name        Action This Period       Restitutions Recoveries
Individual sentenced for possessing and uttering a forged check      Dianna Colon       Sentenced: 5/10/05          $101,373
and participating in a scheme in which 41 identities were used
to fraudulently obtain student financial assistance.
New York man sentenced for using the identity of the New             Tyrone Riley       Sentenced: 7/19/05
York City Deputy Parks Commissioner as a co-signer on
student loan applications and promissory notes.
Tufts University medical school graduate sentenced for               Arijit Chowdhury Sentenced: 4/19/05            $304,466
engaging in an identity theft scheme.
New York woman sentenced for participating in an identity            Linda Griffin      Sentenced: 4/14/05           $7,800
theft scheme.
Massachusetts woman sentenced for an identity theft scheme,          Itza Ruiz          Sentenced: 9/8/05            $20,384
and using the stolen identity to obtain Pell and Supplemental
Education Opportunity Grants.
Massachusetts man received time served for aiding and abetting       Heriberto Ruiz     Sentenced: 9/8/05             $600
his former wife in identity theft, credit card fraud and bank
fraud. He was also sentenced for making false statements in
documents required by federal immigration law.
Individual sentenced for using the identity of another to receive    Eric Liu           Sentenced: 5/6/05            $24,878
student financial assistance.
Identity theft subject admitted that she purchased the identity of   Greta Martinez-    Sentenced: 5/23/05
another individual and used that identity to apply for and           Gutierrez
receive student financial assistance.
Student pled guilty to education fraud for using fraudulent          Luckner Edouard Convicted: 7/22/05
academic transcripts and his brother’s identity to obtain student
financial assistance.
Student sentenced for stealing another individual's identity to      Chandra            Sentenced: 9/19/05           $9,983
attend Owens Community College in Ohio and obtain financial          McCullough
aid refund checks.
Rutgers University Law School student pled guilty to obtaining       Joel Santillones   Convicted: 7/7/05
student financial assistance by using the identity of a U.S.
citizen.
Texas Tech University student pled guilty to misprision of a         John Moretti       Convicted: 9/2/05
felony for participating in a kickback scheme where Pell Grant
funds were awarded to ineligible students.
Falsification of Eligibility
Individual signed a pre-trial diversion agreement in lieu of         Terri Shepherd     Sentenced: 4/21/05           $12,472
prosecution for financial aid fraud.
Individual sentenced for financial aid fraud.                        Jamarr Viverette Sentenced: 8/3/05              $16,011
Former Indiana student sentenced for financial aid fraud.            Scott Phebus      Sentenced: 7/8/05             $3,369
Former University of Phoenix student reached a settlement with       Charisse Barsella Civil Settlement: 8/1/05                  $41,241
the U.S. Department of Justice for financial aid fraud.
Fraudulent Loan Discharges/Deferments
Individual sentenced for faking death in an attempt to discharge Jeffory Brown          Sentenced: 6/23/05           $79,020
loans.
Fraudulent Work Study
Default judgment ordered in federal work-study fraud.                Derrick Jackson    Civil Settlement: 6/6/05                 $1,980




                                                                      41
                                                                                        Semiannual Report To Congress: #51

Table 7: Investigation Services Cumulative Actions
(April 1, 2005 to September 30, 2005) (Cont.)
                                                                                                              Fines/       Civil
                 Summary of Investigation                         Subject Name         Action This Period   Restitutions Recoveries
Foreign School Recipient Fraud
Individual pled guilty to financial aid fraud.                      Dale Givens      Convicted: 5/10/05
Husband and wife sentenced and ordered to pay restitution for Anthony Hervey         Sentenced: 4/11/05       $89,420
leading a scheme to illegally receive student loan benefits.        Gloria Hervey    Sentenced: 4/11/05        $1,530
Individual sentenced for participating in a scheme to illegally Ronald Jackson       Sentenced: 6/10/05         $840
receive student loan benefits.
Individual sentenced for participating in a scheme to illegally Stacey Adams         Sentenced: 4/11/05        $765
receive student loan benefits.
Individual sentenced for participating in a scheme to illegally Twana Moss           Sentenced: 4/5/05         $740
receive student loan benefits.
Individual sentenced for participating in a scheme to illegally Sean Loggin          Sentenced: 6/15/05       $4,520
receive student loan benefits.
Father of foreign school aid recipient pled guilty to making        Phillip Fenner   Convicted: 6/27/05
false statements in order to receive financial aid intended for his
daughter.
Individual sentenced for participating in a scheme to illegally Renee Harris         Sentenced: 6/27/05       $1,765
receive student loan benefits.
INTERNAL INTEGRITY
Former Deputy Under Secretary for Safe and Drug Free             Eric Andell         Sentenced: 7/29/05     $13,659
Schools sentenced for misdemeanor conflict of interest
charges.

OTHER PROGRAMS
Individual sentenced for heading a RICO enterprise. The          Shamsud-Din Ali Sentenced: 9/19/05          $368,040
predicate offenses charged in the RICO indictment came from
defrauding the Adult Basic Education program of Philadelphia
Community College.
Individual sentenced for participating in a scheme to recieve    Faridah Ali         Sentenced: 4/5/05        $30,000
public funds for adult basic education courses that were not
held, and for which teachers were being paid without teaching
courses.
New Jersey man sentenced for fraudulently coming into            Greg Sims           Sentenced: 7/14/05       $4,500
possession of FFEL checks and depositing the proceeds into
his personal bank account.
Former executive director of the Massachusetts Career            Gerald Phillips     Sentenced: 7/18/05       $32,526
Development Institute (MCDI) sentenced for participating in a
conspiracy involving "no show" and "partial show" employees.
Former president of MCDI sentenced for participating in a        Giuseppi Polimeni Sentenced: 7/21/05         $50,000
conspiracy involving "no show" and "partial show" employees.
Former secretary and payroll clerk of MCDI sentenced for         Jamie Dwyer         Sentenced: 6/29/05       $17,300
participating in a conspiracy involving "no show" and "partial
show" employees.
No-show employee of MCDI sentenced.                              Luisa Cardaropoli Sentenced: 6/30/05         $55,293
Executive director of Educational Cooperative sentenced for      Susan Frazier     Sentenced: 8/29/05         $82,133
filing a false tax return.




                                                                  42
                                                                                     Semiannual Report To Congress: #51

Table 8: Statistical Profile: April 1, 2005 to September 30, 2005
                                                                                       Six-month Period       Fiscal Year Ending
                                                                                        Ending 9/30/05              9/30/05
OIG AUDIT REPORTS ISSUED                                                                             41                       82
Questioned Costs                                                                             $25,489,565             $33,832,620
Unsupported Costs                                                                            $14,592,372            $101,791,208
Recommendations for Better Use of Funds                                                         $327,577                $423,460
OTHER OIG PRODUCTS                                                                                   10                       36
(Inspections, Action Memoranda, Alert Memoranda, Closeout Letters, Management
Information Reports, Preaward Reviews, and Special Projects)
OIG AUDIT REPORTS RESOLVED BY PROGRAM MANAGERS                                                       21                       79
Questioned Costs Sustained                                                                    $2,710,566           $103,407,957a
Unsupported Costs Sustained                                                                   $6,534,719             $12,627,579
Additional Disallowances Identified by Program Managers                                              $0               $1,648,911
Management Commitment to the Better Use of Funds                                                 $95,883                $965,734
INVESTIGATIVE CASE ACTIVITY
Cases Opened                                                                                        107                      245
Cases Closed                                                                                        114                      209
Cases Active at End of Period                                                                       309                     N/A
Prosecutorial Decisions                                                                              88                      169
 -Accepted                                                                                           54                      110
 -Declined                                                                                           35                       60
INVESTIGATION RESULTS
Indictments/Informations                                                                             56                      127
Convictions/Pleas                                                                                    57                      133
Fines Ordered                                                                                   $224,950                $239,700
Restitution Payments Ordered                                                                 $7,136,347   1           $8,241,663
Civil Settlements/Judgments (#)                                                                       4                       13
Civil Settlements/Judgments ($)                                                                  $59,721              $2,067,437
Recoveries                                                                                   $1,031,9932              $1,057,988
Forfeitures/Seizures
  a - Questioned cost sustained for SAR 50 should have been $100,697,391 instead of
  $100,725,474. We are, in SAR 51, making correction for the $28,083 in Questioned
  Cost sustained that had been over reported in SAR 50.

  Notes
  The investigations data for SAR 51 are compiled from two different and overlapping
  databases. During this period we converted from ICTS to EDITs. The referencing
  documents are from both systems. When the numbers were compiled, the two were
  cross-referenced so we do not duplicate the numbers. Figures for SAR 50 were
  referenced prior to publication of SAR 50.
  1Includes amounts from following pre-trial diversions: $529,886 in 05-051437 and
  04-060871.
  2Includes the following admin recoveries: $1,090 (05-030073), $1,017,500 (05-
  30040), $5,602 (05-050058).




                                                               43
U.S. Department of Education
Margaret Spellings
Secretary


Office of Inspector General
John P. Higgins, Jr.
Inspector General


Counsel’s Office
Mary Mitchelson
Counsel to the Inspector General


November 2005

This report is in the public domain. Authorization to reproduce it in whole or in part is granted. While
permission to reprint this publication is not necessary, the citation should be: U.S. Department of
Education, Inspector General’s Semiannual Report to Congress, No. 51.

To order copies of this report:

   •   Write to: ED Pubs, Education Publications Center, U.S. Department of Education, P.O. Box
       1398, Jessup, MD 20794-1398;

   •   Fax your request to: (301) 470-1244;

   •   E-mail your request to: edpubs@inet.ed.gov;

   •   Call in your request toll-free: 1-877-433-7827 (1-877-4-ED-PUBS). If 877 service is not yet
       available in your area, call 1-800-872-5327 (1-800-USA-LEARN). Those who use a telecom-
       munications device for the deaf (TDD) or a teletypewriter (TTY) call 1-800-437-0833; or

   •   Order online at: www.ed.gov/pubs.org

This report is also available on the Department’s Web site, at: www.ed.gov/about/offices/list/oig.

On request, this publication is available in alternate formats, such as Braille, large print, audiotape, or
computer diskette. For more information, please contact the Department’s Alternate Format Center at
(202) 260-9895 or (202) 205-8113.
U.S. Department of Education
Washington, D.C. 20202-1510

     Official Business
Penalty for Private Use, $300


          Anyone knowing of fraud, waste, or abuse involving Department of Education funds
                            or programs should call, write, or e-mail the


                                      Inspector General’s Hotline

                                       THE TOLL-FREE NUMBER IS:
                                     1-800-MIS-USED (1-800-647-8733)


                                       THE MAILING ADDRESS IS:
                                        Inspector General’s Hotline
                                        Office of Inspector General
                                       U.S. Department of Education
                                         400 Marland Avenue, SW
                                        Washington, DC 20202-1510


                                         THE E-MAIL ADDRESS IS:
                                            oig.hotline@ed.gov

                          Your report may be made anonymously or in confidence.

                                 For information on identity theft prevention
                                          for students and schools,


                                THE OIG’S IDENTITY THEFT HOMEPAGE IS:
                                            www.ed.gov/misused




                                   U.S. DEPARTMENT OF EDUCATION
                                   OFFICE OF INSPECTOR GENERAL
                                 SEMIANNUAL REPORT TO CONGRESS
